APPENDIX TABLE OF CONTENTS
Mandate of the United States Court of Appeals
for the Ninth Circuit (October 2, 2019) ............. 1a
Memorandum Opinion of the United States Court
of Appeals for the Ninth Circuit
(July 16, 2019) .................................................... 3a
Final Judgment and Order for Permanent Injunction and Other Equitable Relief as to Defendants Jeremy Foti and Charles Marshall
(September 21, 2017)........................................ 11a
Order Re Plaintiff’s Motion for Summary Judgment Against Defendants Jeremy Foti and
Charles Marshall, and Defendant Jeremy
Foti’s Motion for Summary or, in the
Alternative, Summary Adjudication [284, 287]
(September 5, 2017)......................................... 32a
Order of the United States Court of Appeals for
the Ninth Circuit Denying Petition for
Rehearing En Banc (September 24, 2019) ...... 66a
Answering Brief of the Federal Trade Commission
(November 14, 2018) ........................................ 68a

App.1a
MANDATE OF THE UNITED STATES COURT OF
APPEALS FOR THE NINTH CIRCUIT
(OCTOBER 2, 2019)
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
________________________
FEDERAL TRADE COMMISSION,

Plaintiff-Appellee,
v.
CHARLES T. MARSHALL,

Defendant-Appellant.

________________________
No. 17-56476

D.C. No. 8:16-cv-00999-BRO-AFM
U.S. District Court for Central California, Santa Ana
The judgment of this Court, entered July 16, 2019,
takes effect this date.
This constitutes the formal mandate of this Court
issued pursuant to Rule 41(a) of the Federal Rules of
Appellate Procedure.

App.2a
FOR THE COURT:
Molly C. Dwyer
Clerk of Court
By: Quy Le
Deputy Clerk
Ninth Circuit Rule 27-7

App.3a
MEMORANDUM OPINION OF THE
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
(JULY 16, 2019)
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
________________________
FEDERAL TRADE COMMISSION,

Plaintiff-Appellee,
v.
CHARLES T. MARSHALL,

Defendant-Appellant.

________________________
No. 17-56476

D.C. No. 8:16-cv-00999-BRO-AFM
Appeal from the United States District Court
for the Central District of California
Virginia A. Phillips, Chief District Judge, Presiding
Submitted July 12, 2019
Pasadena, California

 This disposition is not appropriate for publication and is not
precedent except as provided by Ninth Circuit Rule 36-3.
 The panel unanimously concludes this case is suitable for
decision without oral argument. See Fed. R. App. P. 34(a)(2).

App.4a
Before: M. SMITH and FRIEDLAND, Circuit Judges,
and SIMON, District Judge.
Defendant-Appellant Charles Marshall appeals the
district court’s orders granting summary judgment
as well as restitution and injunctive relief in favor of
the Federal Trade Commission (“FTC”) for violations
of Section 5 of the FTC Act, 15 U.S.C. § 45(a)(1), and
the Mortgage Assistance Relief Services (“MARS”) Rule,
12 C.F.R. §§ 1015.1-1015.5. Marshall also appeals
the district court’s orders denying his attempt to
amend his Answer and extend discovery and holding
Marshall in contempt for using frozen funds in violation
of a court order. Finally, Marshall argues that the
district court’s final order violated due process and
Federal Rule of Civil Procedure 63.
We affirm.
1. We review de novo the district court’s rulings
on motions for summary judgment. Longoria v. Pinal
County, 873 F.3d 699, 703-04 (9th Cir. 2017). We
may affirm on any ground supported by the record,
including grounds the district court did not reach.
Or. Short Line R.R. Co. v. Dep’t of Revenue Or., 139
F.3d 1259, 1265 (9th Cir. 1998).
We agree with Marshall that, to the extent the
district court disregarded the entirety of Marshall’s
declaration on the basis that it was self-serving, the
district court erred. See Nigro v. Sears, Roebuck &
Co., 784 F.3d 495, 498 (9th Cir. 2015). The declaration
may have been self-serving, but it contained some
 The Honorable Michael H. Simon, United States District
Judge for the District of Oregon, sitting by designation.

App.5a
statements that were “based on personal knowledge,
legally relevant, and internally consistent.” Id. Nevertheless, even taking the statements in the declaration as true, any reasonable jury would conclude on
this record that Marshall is personally liable for
violations of the FTC Act and MARS Rule.
First, the FTC produced sufficient evidence to
show that Brookstone Law Group and Brookstone Law
P.C. (“Brookstone”), Advantis Law P.C. (“AL”), and
Advantis Law Group P.C. (“ALG”) “operate[d] together
as a common enterprise.” FTC v. Grant Connect, LLC,
763 F.3d 1094, 1105 (9th Cir. 2014). It is undisputed
that the three entities shared corporate officers. The
entities also shared resources, including a website,
office spaces, staff members, and nearly identical sales
scripts and advertising materials. These undisputed
facts were sufficient to show that the three corporate
entities functioned as a common enterprise, even if
Marshall’s statements that he did not know AL
existed and that he did not know that ALG was part
of the enterprise are taken as true. See FTC v.
Network Servs. Depot, Inc., 617 F.3d 1127, 1142-43
(9th Cir. 2010).
Second, there were sufficient undisputed facts to
hold Marshall individually liable for injunctive relief
at summary judgment. As part of the common enterprise, ALG is “liable for the[se] deceptive acts and
practices.” Grant Connect, 763 F.3d at 1105. An injunction could issue against Marshall individually for ALG’s
corporate violations if Marshall “participated directly
in the acts or practices or had authority to control
them.” FTC v. Publ’g Clearing House, Inc., 104 F.3d
1168, 1170 (9th Cir. 1997) (quoting FTC v. Am. Standard Credit Sys., Inc., 874 F. Supp 1080, 1087 (C.D.

App.6a
Cal 1994)). The FTC’s evidence that Marshall was
one of ALG’s co-owners and state-registered corporate
officers, that he directed Damian Kutzner and Jeremy
Foti to start marketing the firm, and that Marshall
signed documents on ALG’s behalf is sufficient to
show the necessary level of authority. See id. (holding
that “assumption of the role of president of [the corporation] and her authority to sign documents on behalf of
the corporation demonstrate . . . the requisite control
over the corporation”). Marshall does not dispute the
FTC’s evidence that Brookstone and AL—with which
ALG was in a common enterprise—both violated the
FTC Act and MARS Rule by promising consumers
that participation in mass joinder lawsuits would result
in mortgage-related relief and procuring advance fees
for representation in those suits. See 15 U.S.C.
§ 45(a)(1); 12 C.F.R. § 1015.5. Thus, we conclude that
Marshall failed to create a genuine dispute as to
whether he was personally liable for the common
enterprise’s FTC Act and MARS Rule violations, such
that injunctive relief against him was proper.1
Third, the undisputed facts establish that Marshall
was at least recklessly indifferent to Brookstone’s
and AL’s misrepresentations, making him jointly and
severally liable for restitution for the corporation’s
unjust gains in violation of the FTC Act. Marshall
knew that Kutzner and Geoffrey Broderick had previ1 Marshall contends on appeal that he is entitled to the “attorney exemption” to the MARS Rule under 12 C.F.R. § 1015.7(b).
Marshall has not disputed that it is his burden to show that he
qualifies for the defense, and he has produced no evidence that
the advance fees sent to Brookstone and AL were placed in client
trust accounts, or that his actions were otherwise in compliance
with the governing ethical rules. See id. § 1015.7(b)(1).

App.7a
ously operated schemes accepting unearned advanced
fees for loan modification work that was never performed. He also admitted to knowing that Brookstone
was facing bar discipline related to its mass joinder
practice and admitted to using ALG rather than
Brookstone to file mass joinder lawsuits because he
suspected “there was a problem” with Brookstone.
Marshall’s defenses that he did not personally sign
the AL and ALG marketing materials and that
Kutzner assured him a lawyer had legally approved
the materials are unavailing—it was reckless to rely
on Kutzner, a non-lawyer with a history of running
fraudulent schemes, for such assurances. See also
FTC v. Cyberspace.Com LLC, 453 F.3d 1196, 1202
(9th Cir. 2006) (“‘[R]eliance on advice of counsel is
not a valid defense on the question of knowledge’ required for individual liability.” (quoting FTC v. Amy
Travel Serv., Inc., 875 F.2d 564, 575 (7th Cir. 1989))
(internal brackets omitted)). Given these undisputed
facts, there is no genuine dispute that Marshall is
personally monetarily liable for the common enterprise’s fraud and thus liable for restitution.2
2. We review a denial of a motion for leave to
amend pleadings and a motion for leave to conduct
further discovery for abuse of discretion. See In re W.
States Wholesale Nat. Gas Antitrust Litig., 715 F.3d
716, 736 (9th Cir. 2013); Quinn v. Anvil Corp., 620
F.3d 1005, 1015 (9th Cir. 2010). Because Marshall
filed his motion to amend after the scheduling order
2 Marshall has not contested that consumers suffered injury as
a result of the misleading advertisements or the amount of
monetary liability imposed, so we do not address those issues.
See Publ’g Clearing House, 104 F.3d at 1171; FTC v. Commerce
Planet, Inc., 815 F.3d 593, 603-05 (9th Cir. 2016).

App.8a
deadline, his motion was subject to Federal Rule of
Civil Procedure 16(b)(4), which states that “[a] schedule
may be modified only for good cause and with the
judge’s consent.” Id. “Rule 16(b)’s ‘good-cause’ standard
primarily considers the diligence of the party seeking
the amendment.” Johnson v. Mammoth Recreations,
Inc., 975 F.2d 604, 609 (9th Cir. 1992).
Marshall had four months from the filing of his
Answer invoking the Fifth Amendment to amend under
the district court’s scheduling deadlines, but he still
failed to file a timely motion seeking amendment.
Marshall did not participate in any discovery prior to
his motion for leave to amend, and he has provided
no support for his contentions that the FTC interfered
with his ability to obtain counsel. The district court
did not abuse its discretion in concluding that he did
not exercise due diligence.
For similar reasons, we reject Marshall’s argument
that the district court erred in denying his motion to
extend discovery. See Fed. R. Civ. P. 16(b)(3)(A) (requiring that the scheduling order limit the time to
complete discovery); cf. Brae Transp., Inc. v. Coopers
& Lybrand, 790 F.2d 1439, 1442-43 (9th Cir. 1986)
(holding that a party “cannot complain [of a denial of
a request for further discovery] if it fails to pursue
discovery diligently before summary judgment”).
3. We also review a district court’s civil contempt
order for abuse of discretion. FTC v. Affordable Media,
179 F.3d 1228, 1239 (9th Cir. 1999). The district court
did not err in concluding that Marshall’s withdrawal
of $24,500 from his personal account violated the
Temporary Restraining Order (“TRO”). The TRO made
clear that Marshall’s personal bank accounts were
included in the asset freeze, and Marshall conceded

App.9a
that he had actual notice of the prohibition. The
district court therefore properly determined that
there was clear and convincing evidence showing
that Marshall’s disobedience was beyond substantial
compliance, and not based on a good faith and reasonable interpretation of the court’s order. See In re
Dual-Deck Video Cassette Recorder Antitrust Litig.,
10 F.3d 693, 695 (9th Cir. 1993). Marshall’s citation
to Luis v. United States, 136 S. Ct. 1083 (2016), is
inapposite because he had not been charged with a
crime at the time he withdrew the funds, so it was
not reasonable to think Luis applied here.3
4. Lastly, Marshall argues that Chief Judge
Phillips violated Federal Rule of Civil Procedure 63
and created “due process concerns” when she entered
final judgment without certifying her familiarity with
the record, given that Judge O’Connell had presided
over the summary judgment proceedings and issued the
order granting summary judgment to the FTC. Rule 63
has no bearing at summary judgment, where the court’s
role is to assess what is uncontested in the record
without making credibility determinations. See
T.W. Elec. Serv., Inc. v. Pac. Elec. Contractors Ass’n,
809 F.2d 626, 630 (9th Cir. 1987) (explaining that at
summary judgment, “the judge does not weigh
conflicting evidence with respect to a disputed
3 Marshall previously filed an emergency petition for a writ of
mandamus with our court, challenging the district court’s contempt order and requesting a stay pending resolution of the
petition. See Emergency Pet. for Writ of Mandamus & Mot. for
Stay, Marshall v. United States District Court, No. 17-71781
(9th Cir. 2017), ECF No. 1. We denied the motion for a stay, as well
as the petition for mandamus. Ct. Order, Marshall v. United
States Dist. Ct., No. 17-71781 (9th Cir. 2017), ECF Nos. 9, 10.

App.10a
material fact . . . [n]or does the judge make credibility
determinations”). And Marshall has not explained
what “process” he was deprived of when we review de
novo the summary judgment order.
AFFIRMED.

App.11a
FINAL JUDGMENT AND ORDER FOR
PERMANENT INJUNCTION AND OTHER
EQUITABLE RELIEF AS TO DEFENDANTS
JEREMY FOTI AND CHARLES MARSHALL
(SEPTEMBER 21, 2017)
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
________________________
FEDERAL TRADE COMMISSION,

Plaintiff,
v.
DAMIAN KUTZNER, ET AL.,

Defendants.

________________________

No. SACV16-00999-BRO (AFMx)
Before: Virginia A. PHILLIPS, Chief Judge.
Honorable Beverly R. O’CONNELL,
United States District Court Judge
Plaintiff, the Federal Trade Commission (“Commission” or “FTC”), filed its Complaint for Permanent
Injunction and Other Equitable Relief (“Complaint”),
pursuant to Section 13(b) of the Federal Trade Commission Act (“FTC Act”), 15 U.S.C. § 53(b), and the
2009 Omnibus Appropriations Act, Public Law 111-8,
Section 626, 123 Stat. 524, 678 (Mar. 11, 2009)
(“Omnibus Act”), as clarified by the Credit Card
Accountability Responsibility and Disclosure Act of

App.12a
2009, Public Law 111-24, Section 511, 123 Stat. 1734,
1763-64 (Mar. 22, 2009) (“Credit Card Act”), and
amended by the Dodd-Frank Wall Street Reform and
Consumer Protection Act, Public Law 111-203, Section
1097, 124 Stat. 1376, 2102-03 (July 21, 2010) (“DoddFrank Act”), 12 U.S.C. § 5538. On September 5, 2017,
the Court issued its Order re Plaintiff’s Motion for
Summary Judgment Against Defendants Jeremy Foti
and Charles Marshall, and Defendant Jeremy Foti’s
Motion for Summary Judgment or, in the Alternative, Summary Adjudication. DE 353. There, the
Court granted the FTC’s motion for summary judgment against defendants Jeremy Foti and Charles
Marshall and denied Jeremy Foti’s motion for summary
judgment. On September 19, 2017, the Court ordered
the FTC to “to lodge a Proposed Judgment consistent
with the order issued in this matter no later than
September 22, 2017.” DE 358. On September 20, 2017,
the FTC submitted the Proposed Judgment. Therefore,
the Court issues this order as a Final Judgment pursuant to Federal Rules of Civil Procedure 54(a) and
58(a).
Summary of Findings and Judgment
1. This Court has jurisdiction over this matter.
2. The Complaint charges that Defendants participated in deceptive acts or practices in violation of
Section 5 of the FTC Act, 15 U.S.C. § 45, and otherwise
violated the Mortgage Assistance Relief Services
Rule (“MARS Rule”), 16 C.F.R. Part 322, recodified
as Mortgage Assistance Relief Services, 12 C.F.R.
Part 1015 (“Regulation O”).
3. The undisputed facts establish that Brookstone
Law P.C., a California corporation, Brookstone Law

App.13a
P.C., a Nevada corporation (collectively Brookstone);
Advantis Law P.C. and Advantis Law Group P.C.
(collectively “Advantis” and, with Brookstone, the
“Corporate Defendants”) formed a common enterprise.
“[E]ntities constitute a common enterprise when they
exhibit either vertical or horizontal commonality—
qualities that may be demonstrated by a showing of
strongly interdependent economic interests of the
pooling of assets and revenues.” FTC v. Network Servs.
Depot, Inc., 617 F.3d 1127, 1142-43 (9th Cir. 2010).
Here, the undisputed facts are that Brookstone and
Advantis shared staff and office space at multiple
locations. They had significant overlap in owners and
direct overlap in control persons, including Foti. They
also assisted one another in furthering the scheme,
with Advantis coming on board when Vito Torchia was
being disbarred, using virtually the same misrepresentations in mailers, scripts, and websites. Network
Servs. Depot, Inc., 617 F.3d at 1143 (“The undisputed
evidence is that [defendant’s] companies pooled
resources, staff and funds; they were all owned and
managed by [defendant] and his wife; and they all
participated to some extent in a common venture to
sell internet kiosks.”). “Thus, all of the companies
were beneficiaries of and participants in a shared
business scheme. . . . ” Network Servs. Depot, Inc.,
617 F.3d at 1143.
4. The Corporate Defendants deceptively marketed
and sold to struggling homeowners litigation against
their lenders, falsely telling consumers: they were likely
to prevail; they were likely to receive large monetary
payments; the Corporate Defendants were likely to
void consumers’ mortgages or receive their property
free and clear; the Corporate Defendants had a team

App.14a
of legal professionals capable of litigating the cases
as promised; and, for some consumers, that they
would be added to a lawsuit.
5. The Corporate Defendants were marketing and
selling mortgage assistance relief services (“MARS”)
as defined in 12 C.F.R. § 1015.2.
6. The Corporate Defendants took advance fees
for the MARS in violation of 12 C.F.R. § 1015.5.
7. The Corporate Defendants did not make the
disclosures to consumers required by 12 C.F.R. § 1015.4.
8. The Corporate Defendants made misrepresentations regarding material aspects of their services
in violation of 12 C.F.R. § 1015.3.
9. The Corporate Defendants do not meet the
attorney exemption in 12 C.F.R. § 1015.7.
10. Jeremy Foti had authority to control and
participated in the Corporate Defendants’ acts, and
was doing so by at least January 1, 2011.
11. Charles Marshall had authority to control
and participated in the Corporate Defendants’ acts,
and was doing so by at least February 27, 2015.
12. Because the undisputed facts establish
that Jeremy Foti and Charles Marshall had extensive
involvement in the fraudulent scheme, Jeremy Foti
and Charles Marshall had at least “actual knowledge
of material misrepresentations, . . . reckless[ ] indifferen[ce] to the truth or falsity of a misrepresentation,
or . . . awareness of a high probability of fraud along
with an intentional avoidance of the truth.” FTC v.
Affordable Media, 179 F.3d 1228, 1235 (9th Cir. 1999).

App.15a
13. A permanent injunction is required because,
in light of Jeremy Foti’s and Charles Marshall’s
conduct in operating the Corporate Defendants, and
their prior conduct, there is a “cognizable danger of
recurring violation.” FTC v. Gill, 71 F. Supp. 2d
1030, 1047 (C.D. Cal. 1999), aff’d, 265 F.3d 944 (9th
Cir.) (citing United States v. W.T. Grant, 345 U.S.
629, 633 (1953)). “As demonstrated by the frequency
of the misrepresentations . . . , defendants have
exhibited a pattern of misrepresentations which
convinces this Court that violations of the [MARS
Rule] and of the FTC Act were systematic.” See Gill,
71 F. Supp. 2d at 1047. “As to the possibility of
recurrence,” defendant Marshall continues to be able
to practice law, such that it is possible that he could
engage in similar conduct in the future. As to Foti,
his involvement in the Corporate Defendants’ scheme
was so extensive, and the Corporate Defendants
made so many misrepresentations to consumers, that
in considering the undisputed facts, there is a likelihood
that he will engage in similar conduct in the future.
14. The Corporate Defendants’ net revenues from
January 1, 2011 to June 2, 2016 were $18,146,866.34.
15. The Corporate Defendants’ net revenues from
February 27, 2015 to June 2, 2016 were $1,784,022.61.
Definitions
For the purposes of this Final Judgment, the
following definitions apply:
A. “Assisting others” includes:
1.

performing customer service functions, including receiving or responding to consumer complaints;

App.16a
2.

formulating or providing, or arranging for the
formulation or provision of, any advertising
or marketing material, including any telephone sales script, direct mail solicitation,
or the design, text, or use of images of any
Internet website, email, or other electronic
communication;

3.

formulating or providing, or arranging for
the formulation or provision of, any marketing
support material or service, including web or
Internet Protocol addresses or domain name
registration for any Internet websites, affiliate
marketing services, or media placement
services;

4.

providing names of, or assisting in the generation of, potential customers;

5.

performing marketing, billing, or payment
services of any kind; or

6.

acting or serving as an owner, officer, director,
manager, or principal of any entity.

B. “Corporate Defendants” means Brookstone Law
P.C. (California), Brookstone Law P.C. (Nevada),
Advantis Law P.C., and Advantis Law Group P.C., and
their successors and assigns.
C. “Defendants” means all of the Individual
Defendants and the Corporate Defendants, individually,
collectively, or in any combination.
D. “Financial product or service” means any
product, service, plan, or program represented,
expressly or by implication, to:

App.17a
1.

provide any consumer, arrange for any consumer to receive, or assist any consumer in
receiving, a loan or other extension of credit;

2.

provide any consumer, arrange for any consumer to receive, or assist any consumer in
receiving, credit, debit, or stored value cards;

3.

improve, repair, or arrange to improve or
repair, any consumer’s credit record, credit
history, or credit rating; or

4.

provide advice or assistance to improve any
consumer’s credit record, credit history, or
credit rating.

E. “Individual Defendants” means Damian
Kutzner, Jeremy Foti, Vito Torchia Jr., Jonathan
Tarkowski, R. Geoffrey Broderick, and Charles T.
Marshall.
F. “Person” includes a natural person, organization, or other legal entity, including a corporation,
partnership, proprietorship, association, cooperative,
or any other group or combination acting as an entity.
G. “Secured or unsecured debt relief product or
service” means:
1.

With respect to any mortgage, loan, debt, or
obligation between a person and one or
more secured or unsecured creditors or debt
collectors, any product, service, plan, or
program represented, expressly or by implication, to:
a.

stop, prevent, or postpone any mortgage
or deed of foreclosure sale for a person’s
dwelling, any other sale of collateral,

App.18a
any repossession of a person’s dwelling
or other collateral, or otherwise save a
person’s dwelling or other collateral
from foreclosure or repossession;
b.

negotiate, obtain, or arrange a modification, or renegotiate, settle, or in any
way alter any terms of the mortgage,
loan, debt, or obligation, including a
reduction in the amount of interest,
principal balance, monthly payments,
or fees owed by a person to a secured or
unsecured creditor or debt collector;

c.

obtain any forbearance or modification
in the timing of payments from any
secured or unsecured holder or servicer
of any mortgage, loan, debt, or obligation;

d.

negotiate, obtain, or arrange any extension of the period of time within which
a person may (i) cure his or her default
on the mortgage, loan, debt, or obligation, (ii) reinstate his or her mortgage,
loan, debt, or obligation, (iii) redeem a
dwelling or other collateral, or (iv) exercise any right to reinstate the mortgage, loan, debt, or obligation or redeem
a dwelling or other collateral; obtain
any waiver of an acceleration clause or
balloon payment contained in any
promissory note or contract secured by
any dwelling or other collateral; or

f.

negotiate, obtain, or arrange (i) a short
sale of a dwelling or other collateral, (ii)
a deed-in-lieu of foreclosure, or (iii) any

App.19a
other disposition of a mortgage, loan,
debt, or obligation other than a sale to
a third party that is not the secured or
unsecured loan holder.
The foregoing shall include any manner of
claimed assistance, including auditing or
examining a person’s application for the
mortgage, loan, debt, or obligation.
2.

I.

With respect to any loan, debt, or obligation
between a person and one or more unsecured
creditors or debt collectors, any product,
service, plan, or program represented, expressly or by implication, to:
a.

repay one or more unsecured loans,
debts, or obligations; or

b.

combine unsecured loans, debts, or obligations into one or more new loans,
debts, or obligations.

Ban On Secured or Unsecured Debt Relief Products
and Services

IT IS ORDERED that Jeremy Foti and Charles
Marshall are permanently restrained and enjoined from
advertising, marketing, promoting, offering for sale,
or selling, or assisting others in the advertising,
marketing, promoting, offering for sale, or selling, of
any secured or unsecured debt relief product or service.
II.

Prohibition Against Misrepresentations Relating
to Financial Products and Services

IT IS FURTHER ORDERED that Jeremy Foti and
Charles Marshall, their officers, agents, employees,
and attorneys, and all other persons in active concert

App.20a
or participation with any of them, who receive actual
notice of this Final Judgment, whether acting directly
or indirectly, in connection with the advertising,
marketing, promoting, offering for sale, or selling of
any financial product or service, are permanently
restrained and enjoined from misrepresenting, or
assisting others in misrepresenting, expressly or by
implication:
A. the terms or rates that are available for any
loan or other extension of credit, including:
1.

closing costs or other fees;

2.

the payment schedule, monthly payment
amount(s), any balloon payment, or other
payment terms;

3.

the interest rate(s), annual percentage rate(s),
or finance charge(s), and whether they are
fixed or adjustable;

4.

the loan amount, credit amount, draw
amount, or outstanding balance; the loan
term, draw period, or maturity; or any other
term of credit;

5.

the amount of cash to be disbursed to the
borrower out of the proceeds, or the amount
of cash to be disbursed on behalf of the
borrower to any third parties;

6.

whether any specified minimum payment
amount covers both interest and principal,
and whether the credit has or can result in
negative amortization; or

7.

that the credit does not have a prepayment
penalty or whether subsequent refinancing

App.21a
may trigger a prepayment penalty and/or
other fees;
B. the ability to improve or otherwise affect a
consumer’s credit record, credit history, credit rating,
or ability to obtain credit, including that a consumer’s
credit record, credit history, credit rating, or ability
to obtain credit can be improved by permanently
removing current, accurate negative information from
the consumer’s credit record or history;
C. that a consumer will receive legal representation; or
D. any other fact material to consumers concerning
any good or service, such as: the total costs; any
material restrictions, limitations, or conditions; or
any material aspect of its performance, efficacy,
nature, or central characteristics.
III. Prohibition Against Misrepresentations Relating
to Any Product or Service
IT IS FURTHER ORDERED that Jeremy Foti
and Charles Marshall, their officers, agents, employees, and attorneys, and all other persons in active
concert or participation with any of them, who receive
actual notice of this Final Judgment, whether acting
directly or indirectly, in connection with the
advertising, marketing, promoting, offering for sale,
or selling of any product, service, plan, or program,
are permanently restrained and enjoined from
misrepresenting, or assisting others in misrepresenting,
expressly or by implication:
A. the likelihood of obtaining any relief for
consumers;

App.22a
B. that consumers will be added to a lawsuit;
C. any material aspect of the nature or terms of
any refund, cancellation, exchange, or repurchase
policy, including the likelihood of a consumer obtaining
a full or partial refund, or the circumstances in which
a full or partial refund will be granted to the consumer;
D. that any person is affiliated with, endorsed or
approved by, or otherwise connected to any other
person; government entity; public, non-profit, or other
non-commercial program; or any other program;
E. the nature, expertise, position, or job title of
any person who provides any product, service, plan,
or program;
F. the person who will provide any product, service,
plan, or program to any consumer;
G. that any person providing a testimonial has
purchased, received, or used the product, service, plan,
or program;
H. that the experience represented in a testimonial
of the product, service, plan, or program represents
the person’s actual experience resulting from the use
of the product, service, plan, or program under the
circumstances depicted in the advertisement; or
I. any other fact material to consumers concerning
any good or service, such as: the total costs; any
material restrictions, limitations, or conditions; or any
material aspect of its performance, efficacy, nature,
or central characteristics.
IV. Monetary Judgment
IT IS FURTHER ORDERED that judgment in
the amount of Eighteen Million One Hundred Forty-

App.23a
Six Thousand Eight Hundred Sixty-Six Dollars and
Thirty Four Cents ($18,146,866.34), is entered, in
favor of the Commission against Jeremy Foti, jointly
and severally, as equitable monetary relief. Jeremy
Foti is ordered to pay the FTC this amount immediately
upon the entry of this Final Judgment.
IT IS FURTHER ORDERED that judgment in
the amount of One Million Seven Hundred Eighty-Four
Thousand Twenty-Two Dollars and Sixty-One Cents
($1,784,022.61), is entered in favor of the Commission
against Charles Marshall, jointly and severally, as
equitable monetary relief. Charles Marshall is ordered
to pay the FTC this amount immediately upon the
entry of this Final Judgment.
V.

Additional Monetary Provisions
IT IS FURTHER ORDERED that:

A. Jeremy Foti and Charles Marshall relinquish
dominion and all legal and equitable right, title, and
interest in all assets transferred pursuant to this
Final Judgment and may not seek the return of any
assets.
B. All money paid to the Commission pursuant to
this Final Judgment may be deposited into a fund
administered by the Commission or its designee to be
used for equitable relief, including consumer redress
and any attendant expenses for the administration of
any redress fund. If a representative of the Commission
decides that direct redress to consumers is wholly or
partially impracticable or money remains after redress
is completed, the Commission may apply any remaining
money for such other equitable relief (including
consumer information remedies) as it determines to

App.24a
be reasonably related to Defendants’ practices alleged
in the Complaint. Any money not used for such
equitable relief is to be deposited to the U.S. Treasury
as disgorgement. Defendants have no right to challenge
any actions the Commission or its representatives
may take pursuant to this Subsection.
C. The asset freezes in force against Jeremy Foti
and Charles Marshall are modified to permit the
payment of the Monetary Judgments, above identified.
Upon satisfaction of their Monetary Judgments, the
asset freezes shall be dissolved.
VI. Receivership Termination
IT IS FURTHER ORDERED that the Receiver
must complete all duties related to the individual
receivership estate created pursuant to DE 153 within
180 days after entry of this Final Judgment, but any
party or the Receiver may request that the Court extend
the Receiver’s term for good cause.
VII. Customer Information
IT IS FURTHER ORDERED that Jeremy Foti
and Charles Marshall, their officers, agents, employees, and attorneys, and all other persons in active
concert or participation with any of them, who receive
actual notice of this Final Judgment, are permanently
restrained and enjoined from directly or indirectly:
A. failing to provide sufficient customer information to enable the Commission to efficiently
administer consumer redress. If a representative of
the Commission requests in writing any information
related to redress, Jeremy Foti and Charles Marshall

App.25a
must provide it, in the form prescribed by the Commission, within 14 days;
B. disclosing, using, or benefitting from customer
information, including the name, address, telephone
number, email address, social security number, other
identifying information, or any data that enables
access to a customer’s account (including a credit
card, bank account, or other financial account), that
any Defendant obtained prior to entry of this Final
Judgment in connection with any product or service
related to consumers’ mortgages; and
C. failing to destroy such customer information
in all forms in their possession, custody, or control
within 30 days after entry of this Final Judgment.
Provided, however, that customer information
need not be disposed of, and may be disclosed, to the
extent requested by a government agency or required
by law, regulation, or court order.
VIII. Final Judgment Acknowledgments
IT IS FURTHER ORDERED that Jeremy Foti
and Charles Marshall submit acknowledgments of the
Final Judgment. They each shall:
A. Within 7 days of entry of this Final Judgment,
submit to the Commission an acknowledgment of
receipt of this Final Judgment sworn under penalty
of perjury.
B. For 5 years after entry of this Final Judgment,
for any business that either of them, individually or
collectively with any other Defendant, is the majority
owner or controls directly or indirectly, must deliver
a copy of this Final Judgment to: (1) all principals,

App.26a
officers, directors, and LLC managers and members;
(2) all employees, agents, and representatives who
participate in conduct related to the subject matter of
the Final Judgment; and (3) any business entity
resulting from any change in structure as set forth in
the Section titled Compliance Reporting. Delivery
must occur within 7 days of entry of this Final Judgment for current personnel. For all others, delivery
must occur before they assume their responsibilities.
C. From each individual or entity to which Jeremy
Foti or Charles Marshall delivered a copy of this
Final Judgment, he must obtain, within 30 days, a
signed and dated acknowledgment of receipt of this
Final Judgment.
IX. Compliance Reporting
IT IS FURTHER ORDERED that Jeremy Foti
and Charles Marshall make timely submissions to the
Commission.
A. They each shall, one year after entry of this
Final Judgment, submit a compliance report, sworn
under penalty of perjury:
1.

(a) identifying the primary physical, postal,
and email address and telephone number,
as designated points of contact, which representatives of the Commission may use to
communicate with him; (b) identifying all of
his businesses by all of their names, telephone
numbers, and physical, postal, email, and
Internet addresses; (c) describing the activities of each business, including the goods
and services offered, the means of advertising,
marketing, and sales, and the involvement

App.27a
of any other Defendant (which he must
describe if he knows or should know due to
their own involvement); (d) describing in
detail whether and how he is in compliance
with each Section of this Final Judgment;
(e) providing a copy of each Final Judgment
Acknowledgment obtained pursuant to this
Final Judgment, unless previously submitted to the Commission; and
2.

(a) identifying all telephone numbers and all
physical, postal, email and Internet addresses,
including all residences; (b) identifying all
business activities, including any business
for which he performs services whether as
an employee or otherwise and any entity in
which he has any ownership interest; and (c)
describing in detail his involvement in each
such business, including title, role, responsibilities, participation, authority, control, and
any ownership.

B. For 15 years after entry of this Final Judgment,
Jeremy Foti and Charles Marshall each must submit
a compliance notice, sworn under penalty of perjury,
within 14 days of any change in the following:
1.

(a) any designated point of contact; or (b)
the structure of any entity that he has any
ownership interest in or controls directly or
indirectly that may affect compliance obligations arising under this Final Judgment,
including: creation, merger, sale, or dissolution of the entity or any subsidiary, parent,
or affiliate that engages in any acts or practices subject to this Final Judgment; and

App.28a
2.

(a) name, including aliases or fictitious
name, or residence address; or (b) title or role
in any business activity, including any business for which he performs services whether
as an employee or otherwise and any entity
in which he has any ownership interest, and
identify the name, physical address, and
any Internet address of the business or entity.

C. Jeremy Foti and Charles Marshall must each
submit to the Commission notice of the filing of any
bankruptcy petition, insolvency proceeding, or similar
proceeding by or against him within 14 days of its
filing.
D. Any submission to the Commission required by
this Final Judgment to be sworn under penalty of
perjury must be true and accurate and comply with
28 U.S.C. § 1746, such as by concluding: “I declare
under penalty of perjury under the laws of the United
States of America that the foregoing is true and correct.
Executed on: _____” and supplying the date, signatory’s
full name, title (if applicable), and signature.
E. Unless otherwise directed by a Commission
representative in writing, all submissions to the
Commission pursuant to this Final Judgment must be
emailed to DEbrief@ftc.gov or sent by overnight courier
(not the U.S. Postal Service) to: Associate Director for
Enforcement, Bureau of Consumer Protection, Federal
Trade Commission, 600 Pennsylvania Avenue NW,
Washington, DC 20580. The subject line must begin:
FTC v. Damian Kutzner, X030002.

App.29a
X.

Recordkeeping

IT IS FURTHER ORDERED that Jeremy Foti
and Charles Marshall each must create certain records
for 15 years after entry of the Final Judgment, and
retain each such record for 5 years. Specifically, for
any business that either, individually or collectively
with any other Defendant, is a majority owner or
controls directly or indirectly, he must create and
retain the following records:
A. accounting records showing the revenues from
all goods or services sold;
B. personnel records showing, for each person
providing services, whether as an employee or
otherwise, that person’s: name; addresses; telephone
numbers; job title or position; dates of service; and (if
applicable) the reason for termination;
C. records of all consumer complaints and refund
requests, whether received directly or indirectly,
such as through a third party, and any response;
D. all records necessary to demonstrate full
compliance with each provision of this Final Judgment,
including all submissions to the Commission; and
E. a copy of each unique advertisement or other
marketing material.
XI. Compliance Monitoring
IT IS FURTHER ORDERED that, for the purpose
of monitoring Jeremy Foti’s and Charles Marshall’s
compliance with this Final Judgment:
A. Within 14 days of receipt of a written request
from a representative of the Commission, Jeremy
Foti and Charles Marshall each must: submit additional

App.30a
compliance reports or other requested information,
which must be sworn under penalty of perjury; appear
for depositions; and produce documents for inspection
and copying. The Commission is also authorized to
obtain discovery, without further leave of court,
using any of the procedures prescribed by Federal
Rules of Civil Procedure 29, 30 (including telephonic
depositions), 31, 33, 34, 36, 45, and 69.
B. For matters concerning this Final Judgment,
the Commission is authorized to communicate directly
with Jeremy Foti and Charles Marshall. Jeremy Foti
and Charles Marshall each must permit representatives
of the Commission to interview any employee or other
person affiliated with him who has agreed to such an
interview. The person interviewed may have counsel
present.
C. The Commission may use all other lawful
means, including posing, through its representatives
as consumers, suppliers, or other individuals or entities
to Jeremy Foti or Charles Marshall or any individual
or entity affiliated with either or both of them,
without the necessity of identification or prior notice.
Nothing in this Final Judgment limits the Commission’s lawful use of compulsory process, pursuant to
Sections 9 and 20 of the FTC Act, 15 U.S.C. §§ 49,
57b-1.
D. Upon written request from a representative of
the Commission, any consumer reporting agency must
furnish consumer reports concerning either Jeremy
Foti or Charles Marshall, pursuant to Section 604(1) of
the Fair Credit Reporting Act, 15 U.S.C. § 1681b(a)(1).

App.31a
XII. Retention of Jurisdiction
IT IS FURTHER ORDERED that this Court
retains jurisdiction of this matter for purposes of
construction, modification, and enforcement of this
Final Judgment.
IT IS SO ORDERED.
By: /s/ Virginia A. Phillips
Honorable Beverly R. O’Connell
United States District Court Judge
Dated: September 21, 2017

App.32a
ORDER RE PLAINTIFF’S MOTION FOR
SUMMARY JUDGMENT AGAINST DEFENDANTS
JEREMY FOTI AND CHARLES MARSHALL, AND
DEFENDANT JEREMY FOTI’S MOTION FOR
SUMMARY OR, IN THE ALTERNATIVE,
SUMMARY ADJUDICATION [284, 287]
(SEPTEMBER 5, 2017)
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
________________________
FEDERAL TRADE COMMISSION,
v.
DAMIAN KUTZNER, ET AL.
________________________
No. SA CV 16-00999-BRO (AFMx)
Before: The Hon. Beverly REID O’CONNELL,
United States District Judge.
I.

Introduction

Pending before the Court are Plaintiff Federal
Trade Commission’s (“Plaintiff” or “FTC”) Motion for
Summary Judgment against Defendants Jeremy Foti
(“Foti”) and Charles Marshall (“Marshall”) (Dkt. No.
284 (hereinafter, “FTC Mot.”)), and Defendant Foti’s
Motion for Summary Judgment or, in the alternative,
Motion for Summary Adjudication (Dkt. No. 287 (hereinafter, “Foti Mot.”)). After considering the papers filed
in support of and in opposition to the instant Motions,
as well as the oral argument of counsel, the Court

App.33a
GRANTS Plaintiff’s Motion for Summary Judgment
and DENIES Defendant Foti’s Motion for Summary
Judgment.
II.

Background
A. The Parties and Plaintiff’s Allegations1

The FTC brings the instant action against several
corporate entities, Brookstone Law P.C. (California),
doing business as Brookstone Law Group, Brookstone
Law P.C. (Nevada), Advantis Law P.C. and Advantis
Law Group P.C.2 (See Dkt. No. 61 (hereinafter, “FAC”)
¶¶ 6-7.) These companies are law firms that offer
mortgage relief services to consumers. (FAC ¶ 7.) In
addition, Plaintiff brings this action against several
individual Defendants: Damian Kutzner, Vito Torchia,
Jr., Jonathan Tarkowski, R. Geoffrey Broderick,
Marshall, and Foti (collectively, the “Individual
Defendants”). (See Dkt. Nos. 1, 61.) Plaintiff has
reached resolutions with several of the Individual
1 The Court’s description of the background of this case does not
constitute this Court’s findings of undisputed facts for these
Motions.
2 Brookstone Law P.C. (California), Brookstone Law P.C. (Nevada),
Advantis Law P.C., and Advantis Law Group P.C. are
collectively referred to as the “Corporate Defendants.” Brookstone Law P.C. (California) and Brookstone Law P.C. (Nevada)
are collectively referred to as “Brookstone.” Advantis Law P.C.
(“Advantis Law”) and Advantis Law Group P.C. (“Advantis Law
Group”) are collectively referred to as “Advantis.” According to
Plaintiff, Brookstone and Advantis “are under common control,
with common employees and a common address while marketing the same product.” (FAC ¶ 14.) Plaintiff also avers that
“Defendants have used the names Brookstone and Advantis
interchangeably.” (FAC ¶ 14.)

App.34a
Defendants, and they have been dismissed from the
action. (See Dkt. Nos. 170, 177, 193.) Plaintiff has not
reached a resolution with Defendants Foti or
Marshall.
Plaintiff alleges that Defendant Foti “is an owner
and controlling person of Brookstone and a principal
or controlling person of Advantis.” (FAC ¶ 9.) According
to Plaintiff, Foti was one of the co-founders of
Brookstone in 2011.” (FAC ¶ 9.) “Although not an
attorney, Foti controls the marketing and sales at
both Brookstone and Advantis.” (FAC ¶ 9.) Plaintiff
claims that “[a]t all times material . . . , acting alone
or in concert with others, [Foti] formulated, directed,
controlled, had the authority to control, or participated
in the acts and practices set forth” in the FTC’s FAC.
(FAC ¶ 9.)
Plaintiff alleges that Defendant Marshall “is a
director, Chief Executive Officer, and Secretary of
Advantis.” (FAC ¶ 13.) “Marshall has also appeared
as counsel in Brookstone’s Wright v. Bank of America
mass joinder case.” (FAC ¶ 13.) “In 2015, Marshall
was disciplined by the California Bar for violations
related to mortgage assistance relief services, receiving
a 90-day suspension from the practice of law in
November 2015 for his ethical violations.” (FAC ¶ 13.)
Plaintiff claims that “[a]t all times material . . . ,
acting alone or in concert with others, [Marshall]
formulated, directed, controlled, had the authority to
control, or participated in the acts and practices set
forth” in the FTC’s FAC. (FAC ¶ 13.)
The instant action arises from the Individual
Defendants’ alleged scheme to defraud “consumers out
of thousands of dollars in upfront and recurring monthly
fees” in violation of the FTC Act and the Mortgage

App.35a
Assistance Relief Services (“MARS”) Rule, 12 C.F.R.
1015. (Dkt. No. 142 at 4.) Specifically, Plaintiff claims
that the Individual Defendants, operating through the
Corporate Defendants, “convince consumers that if
added to a ‘mass joinder’ case against their lender,
they can expect a significant recovery, typically at
least $75,000.” (Id.) Plaintiff also claims that, despite
their representations to the contrary, the Individual
Defendants “have never won a mass joinder case, do
not have the experience or resources to litigate them,
and never sue on behalf of many paying consumers.”
(Id.)
The purported scheme began with Defendant
Kutzner’s ULG, a law firm offering advance fee loan
modifications. (Id. at 5.) However, after the FBI and
the United States Postal Inspectors raided ULG due
to claims that its two primary attorneys committed
mortgage modification fraud, and with ULG “unraveling,” Defendant Kutzner, along with Defendants
Torchia and Foti, set out to market mass joinder litigation through Brookstone. (Id.)
To market the mass joinder litigation, the Individual Defendants allegedly sent a substantial amount
of form mailers to the public, which included the
following statements: “you may be a potential plaintiff against your lender[;]” “our team of experienced lawyers offers you a superior alternative for recovery[;]” and
“[i]t may be necessary to litigate your claims against
your lender to get the help you need and our lawyers
know how to do so.” (Id.) The mailers also included
statements that consumers had “a very strong case”
and that prevailing in the litigation was “basically a
done deal.” (Id.)

App.36a
In order to participate in the mass joinder litigation, the Individual Defendants would require consumers to pay upfront fees, including a large initial fee
and subsequent monthly fees. (Id.) According to
Plaintiff, the Individual Defendants failed to keep
these fees in client trust accounts. (Id.) Plaintiff also
claims that the mailers and fee agreements failed to
include disclosures required by law. (Id.) Plaintiff
avers that the Individual Defendants failed to provide
the promised services, as many consumers were never
added to a mass joinder case and the attorneys working
for Brookstone and Advantis did not have sufficient
experience to competently litigate the mass joinders.
(Id.)
B. Procedural History
On May 31, 2016, Plaintiff filed its Original
Complaint under seal. (Dkt. No. 1.) Plaintiff alleged
two causes of action in its Original Complaint: (1) a
violation of the FTC Act, 15 U.S.C. § 45(a); and, (2) a
violation of the MARS Rule, 16 C.F.R. Part 322,
recodified as 12 C.F.R. Part 1015 against Defendant
Marshall and others, but not Defendant Foti. (Dkt.
No. 1.) On July 5, 2016, Plaintiff filed a First Amended
Complaint, adding Foti as a defendant, and alleging
the same causes of action as its Original Complaint.
(See FAC.)
On July 10, 2017, Plaintiff filed its Motion for
Summary Judgment against Defendants Foti and
Marshall. (FTC Mot.) Also on July 10, 2017, Defendant
Foti filed his Motion for Summary Judgment or, in
the alternative, Summary Adjudication. (Foti Mot.)
On August 7, 2017, Defendant Foti (Dkt. No. 304
(hereinafter, “Foti Opp’n”)) and Defendant Marshall

App.37a
(Dkt. No. 313 (hereinafter, “Marshall Opp’n”)) opposed
the FTC’s Motion. Also on August 7, 2017, Plaintiff
opposed Foti’s Motion. (Dkt. No. 303 (hereinafter,
“FTC Opp’n”).) On August 14, 2017, Plaintiff filed its
reply in support of its Motion (Dkt. No. 315 (hereinafter, “FTC Reply”)), and Foti filed his reply in support of his Motion (Dkt. No. 319 (“hereinafter, “Foti
Reply”)).
On August 20, 2017, Defendant Marshall filed a
Notice of Errata, attaching a corrected version of his
response to Plaintiff’s Separate Statement of Undisputed Facts. (Dkt. No. 338.) On August 21, 2017, the
Court ordered Plaintiff to file any response to
Defendant Marshall’s corrected Statement Disputing
Plaintiff’s Undisputed Facts and Conclusions of Law
in Support of Summary Judgment by August 24, 2017.
(Dkt. No. 339.) Plaintiff complied with the Court’s
order and filed its Undisputed Statement of facts and
Conclusions of Law on Reply in Support of its Summary
Judgment Motion on August 24, 2017. (Dkt. No. 341
(hereinafter, “FTC Mot. USF”).)
The Court held a hearing on these Motions on
August 28, 2017.
III. Evidentiary Objections
“In motions for summary judgment with numerous
objections, it is often unnecessary and impractical for
a court to methodically scrutinize each objection and
give a full analysis of each argument raised.” Doe v.
Starbucks, Inc., No. 08-0582, 2009 WL 5183773, at
*1 (C.D. Cal. Dec. 18, 2009). “This is especially true
when many of the objections are boilerplate recitations
of evidentiary principles or blanket objections without
analysis applied to specific items of evidence.” Id.; see

App.38a

also Stonefire Grill, Inc. v. FGF Brands, Inc., 987 F.

Supp. 2d 1023, 1033 (C.D. Cal. 2013) (explaining that
“the Court will not scrutinize each objection and give
a full analysis of identical objections raised as to each
fact”). Per this Court’s Standing Order, the parties
are not to “submit blanket or boilerplate objections to
the opponent’s statements of undisputed fact.” (Standing Order Regarding Newly Assigned Cases Rule
8(c)(iii).) “The boilerplate objections will be overruled
and disregarded.” (Standing Order Regarding Newly
Assigned Cases Rule 8(c)(iii).)
Defendant Foti makes a variety of boilerplate
objections to Plaintiff’s evidence included in support
of Plaintiff’s Motion for Summary Judgment as well
as Plaintiff’s evidence included in opposition to
Defendant Foti’s Motion for Summary Judgment. (See
Foti Reply at 1; FTC Mot. USF.) Defendant Marshall
has joined in Foti’s objections.3 The Court will not
consider Defendants’ blanket or boilerplate objections.
See Starbucks, Inc., 2009 WL 5183773, at *1; (Standing
Order Regarding Newly Assigned Cases Rule 8(c)(iii)).
Defendant Foti makes a few specific objections that
the Court discusses below. First, Foti argues that the
emails, scripts, and mailers that the Receiver collected
from the Corporate Defendants’ offices are inadmissible
because they have not been authenticated, they lack
foundation, and/or they are not relevant. (Foti Reply
at 1; Dkt. No. 304-2.) Second, Foti argues that the
FTC relies on a flawed expert report in support of its
3 In his opposition, Defendant Marshall states that he “joins in
Defendant Foti’s evidentiary objections to the Plaintiff’s evidence
in support of its motion for summary judgment.” (Marshall
Opp’n at 2 n.2.)

App.39a
Motion for Summary Judgment. (Foti Reply at 1;
Dkt. No. 304-3.)
A. Defendant’s Evidentiary Objections Regarding
the Admissibility of the Emails, Scripts, and
Mailers Collected by the Receiver from the
Corporate Defendants
The Court OVERRULES Defendant’s objections
that the emails, scripts, and mailers the Receiver
obtained from the Corporate Defendants have not been
authenticated. The Receiver found the documents in
question on the Defendants’ premises, copied them,
and produced them to the FTC. (See Dkt. Nos. 57 at
22 (detailing that the Receiver was made the custodian
of all the Receivership’s documents and assets), 2848 at 1-2 ¶¶ 2-4.) These documents are, therefore,
authentic, as business records certified by the Receiver.
MGM Studios Inc. v. Grokster, Ltd., 454 F. Supp. 2d
966, 972 (C.D. Cal. 2006) (emails of individual employees authenticated through production by corporate
defendant); Burgess v. Premier, 727 F.2d 826, 835-36
(9th Cir. 1984) (documents found on the defendants’
premises were authentic). Further, many of the
emails are also authenticated by having been found
on one of Foti’s computers. (See Dkt. No. 284-8 at 1-2
¶¶ 2-4.) As shown in Burgess, to overcome this prima
facie showing of authenticity, Foti would need to
prove there was a “motive . . . to store false documents”
at the Corporate Defendants’ offices. See Burgess,
727 F.2d 826 at 835; see also E.W. French & Sons,
Inc. v. Gen. Portland, Inc., 885 F.2d 1392, 1298 (9th
Cir. 1988) (explaining that the FTC need only establish a prima facie case of authenticity). Foti has not
done so, and thus, the Court overrules Defendant’s
objections with respect to the objection that the emails,

App.40a
scripts, and mailers obtained from the Corporate
Defendants have not been authenticated.
The Court also finds that Defendant Foti’s objection
as to the relevance of the emails, mailers, and scripts
that the Receiver obtained from the Corporate Defendants is also OVERRULED. Foti argues that these
documents are irrelevant. (See Dkt. No. 3042 at 5.)
However, these documents are relevant in that they
tend to prove or disprove that the Corporate Defendants and the Individual Defendants engaged in the
illegal conduct in question, and these facts are thus
of consequence in determining the action. See Fed. R.
Evid. 401. Defendant Foti’s arguments on this point
are therefore rejected.
B. Defendant’s Evidentiary Objections Regarding
the FTC’s Expert Report Prepared by Dr.
Isaacson
The Court OVERRULES Defendant’s objection
that Dr. Isaacson’s report is inadmissible. Dr. Isaacson
conducted a survey measuring the experience of
consumers who retained the Corporate Defendants for
their services. (See Dkt. No. 284-6.) Contrary to
Defendant Foti’s arguments, Dr. Isaacson’s report
does not violate Federal Rule of Evidence 702. As Dr.
Isaacson testifies in his supporting declarations, his
procedure for conducting the consumer survey is in
accordance with generally accepted procedures, he
appropriately blinded the study to hide the purpose
of the study from the respondents while giving the
respondents comfort in the legitimacy of the survey,
determined that the response rate was more than
sufficient, and determined there were no inherent
biases. (See Dkt. Nos. 284-6, 315-5.) After considering

App.41a
the declarations of Dr. Isaacson, it appears that the
survey he conducted does not suffer from the alleged
defects discussed in In re Autozone, Inc., No. 3:10md-02159-CRB, 2016 U.S. Dist. LEXIS 105746 (N.D.
Cal. Aug. 10, 2016). Here, Dr. Isaacson’s survey did
not disclose the nature or purpose of the survey and
has a much higher response rate than that in Autozone,
greater than 20%. (See Dkt. No. 315-3 ¶ 4); In re
Autozone, Inc., 2016 U.S. Dist. LEXIS 105746 at *56
(“Plaintiffs’ survey had a woefully low response rate
[—] . . . a response rate of 3.43%. . . . ”). Further, the
Court finds that the FTC has put forward competent
expert testimony on the nature and sufficiency of the
survey, but neither Marshall nor Foti have countered
with any contrary expert testimony, either in the
form of their own survey or expert critique of Dr.
Isaacson’s survey. Therefore, the Court has uncontroverted testimony supporting the legitimacy of the
survey, and there is no reason to doubt its reliability.
See FTC v. Stefanchik, 559 F.3d 924, 929 (9th Cir.
2009) (criticizing survey was not sufficient to defeat
summary judgment).
IV. Legal Standard
Summary judgment is appropriate when, after
adequate discovery, the evidence demonstrates that
there is no genuine issue as to any material fact, and
the moving party is entitled to judgment as a matter
of law. Fed. R. Civ. P. 56. A disputed fact is material
where its resolution might affect the outcome of the
suit under the governing law. Anderson v. Liberty
Lobby Inc., 477 U.S. 242, 248 (1986). An issue is
genuine if the evidence is sufficient for a reasonable
jury to return a verdict for the non-moving party. Id.
The moving party bears the initial burden of estab-

App.42a
lishing the absence of a genuine issue of material fact.
Celotex Corp. v. Catrett, 477 U.S. 317, 323-24 (1986).
The moving party may satisfy that burden by showing
“that there is an absence of evidence to support the
non-moving party’s case.” Id. at 325.
Once the moving party has met its burden, the
non-moving party must “do more than simply show that
there is some metaphysical doubt as to the material
facts.” Matsushita Elec. Indus. Co. v. Zenith Radio
Corp., 475 U.S. 574, 586 (1986). Rather, the non-moving
party must go beyond the pleadings and identify specific
facts that show a genuine issue for trial. Id. at 587.
Only genuine disputes over facts that might affect
the outcome of the lawsuit will properly preclude the
entry of summary judgment. Anderson, 477 U.S. at 248;
see also Arpin v. Santa Clara Valley Transp. Agency,
261 F.3d 912, 919 (9th Cir. 2001) (holding that the
non-moving party must present specific evidence from
which a reasonable jury could return a verdict in its
favor). A genuine issue of material fact must be more
than a scintilla of evidence, or evidence that is
merely colorable or not significantly probative. Addisu
v. Fred Meyer, 198 F.3d 1130, 1134 (9th Cir. 2000).
A court may consider the pleadings, discovery, and
disclosure materials, as well as any affidavits on file.
Fed. R. Civ. P. 56(c)(2). Where the moving party’s
version of events differs from the non-moving party’s
version, a court must view the facts and draw reasonable inferences in the light most favorable to the nonmoving party. Scott v. Harris, 550 U.S. 372, 378 (2007).
Although a court may rely on materials in the
record that neither party cited, it need only consider
cited materials. Fed. R. Civ. P. 56(c)(3). Therefore, a
court may properly rely on the non-moving party to

App.43a
identify specifically the evidence that precludes summary judgment. Keenan v. Allan, 91 F.3d 1275, 1279
(9th Cir. 1996).
Finally, the evidence presented by the parties
must be admissible. Fed. R. Civ. P. 56(e). Conclusory
or speculative testimony in affidavits and moving
papers is insufficient to raise a genuine issue of fact
and defeat summary judgment. Thornhill’s Publ’g Co.
v. GTE Corp., 594 F.2d 730, 738 (9th Cir. 1979).
Conversely, a genuine dispute over a material fact
exists if there is sufficient evidence supporting the
claimed factual dispute, requiring a judge or jury to
resolve the differing versions of the truth. Anderson,
477 U.S. at 253.
V.

Discussion

The FTC argues that the undisputed facts establish
that Defendants Foti and Marshall, through the acts
of the Corporate Defendants, (1) violated the FTC Act
by making material misrepresentations about the
services that they provided to the consumers; and, (2)
violated the MARS Rule by (a) failing to make the
proper disclosures while communicating with consumers, (b) collecting improper fees before obtaining the
promised result, and (c) misrepresenting material
aspects of the services. (See generally FTC Mot.)
Defendant Foti argues that “there is an absence of
evidence to support the FTC’s case,” and that summary
judgment should be entered in Defendant Foti’s favor
as a result. (See Foti Mot. at 2.) In determining these
instant Motions for Summary Judgment, the Court
considers all appropriate evidentiary material identified
and submitted in support of and in opposition to both
Motions; here, the two Motions address the same claims

App.44a
and the same underlying facts. See Fair Housing
Council of Riverside Cty., Inc. v. Riverside Two, 249
F.3d 1132 (9th Cir. 2001); (Foti Mot.; FTC Mot.).
A. The Conduct of the Corporate Defendants
1. The Corporate Defendants Formed a
Common Enterprise
At the outset, the Court finds that the undisputed
facts establish that the Corporate Defendants formed
a common enterprise. “[E]ntities constitute a common
enterprise when they exhibit either vertical or horizontal commonality—qualities that may be demonstrated by a showing of strongly interdependent
economic interests of the pooling of assets and
revenues.” FTC v. Network Servs. Depot, Inc., 617 F.3d
1127, 1142-43 (9th Cir. 2010). Here, the undisputed
facts are that Brookstone and Advantis shared staff
and office space at multiple locations. (See, e.g., FTC
Mot. USF ¶¶ 64-67, 75-76, 78.) They had significant
overlap in owners and direct overlap in control persons,
including Foti. (See, e.g., FTC Mot. USF ¶¶ 56, 231,
305, 308.) They also assisted one another in furthering the scheme, with Advantis coming on board
when Torchia was being disbarred, using virtually
the same misrepresentations in mailers, scripts, and
websites. (See FTC Mot. USF ¶¶ 46-62, 84-89);
Network Servs. Depot, Inc., 617 F.3d at 1143 (“The
undisputed evidence is that [defendant’s] companies
pooled resources, staff and funds; they were all
owned and managed by [defendant] and his wife; and
they all participated to some extent in a common
venture to sell internet kiosks.”). “Thus, all of the
companies were beneficiaries of and participants in a

App.45a
shared business scheme. . . . ” Network Servs. Depot,
Inc., 617 F.3d at 1143.
2. The Corporate Defendants Violated the
FTC Act
“Section 5 of the FTC Act prohibits deceptive
acts or practices in or affecting commerce and imposes
injunctive and equitable liability upon the perpetrators
of such acts.” Network Servs. Depot, Inc., 617 F.3d at
1138 (citing 15 U.S.C. § 45(a)). “An act or practice is
deceptive if first, there is a representation, omission,
or practice that, second, is likely to mislead consumers
acting reasonably under the circumstances, and third,
the representation, omission, or practice is material.”
Stefanchik, 559 F.3d at 928 (internal quotation marks
omitted). “Express product claims are presumed to be
material.” FTC v. Pantron I Corp., 33 F.3d 1088, 109596 (9th Cir. 1994). “Deception may be found based on
the ‘net impression’ created by a representation.” Id.
The undisputed facts show that the Corporate
Defendants made numerous deceptive statements
to consumers. Brookstone’s representatives said or
suggested that hiring Brookstone would definitely or
probably achieve at least one of the following five
outcomes: consumers would (1) win a lawsuit against
the company that holds their mortgage; (2) have the
terms of the mortgage changed; (3) receive money; (4)
have their mortgage voided; and/or (5) get their property
free and clear of their mortgage. (FTC Mot. USF ¶ 176.)
Brookstone’s representatives told consumers that that
they would definitely or probably win their lawsuit.
(FTC Mot. USF ¶ 176.) In addition, consumers received
advertising in the mail from the Corporate Defendants
that stated: “you may be a potential plaintiff against

App.46a
your lender;” mass joinder is a way to “void your note(s),
and/or award you relief and monetary damages;” “our
team of experienced lawyers offers you a superior
alternative for recovery;” and, “[i]t may be necessary
to litigate your claims against your lender to get the
help you need and our lawyers know how to do so.”
(FTC Mot. USF ¶¶ 99-102.) Some versions of the
mailers told consumers they could expect to receive
$75,000 in damages. (FTC Mot. USF ¶¶ 103-04.) One
mailer stated that each customer “shall receive a
judicial determination that the mortgage lien alleged
to exist against their particular property is null and
void ab initio.” (FTC Mot. USF ¶ 104.) Some mailers
referenced the Department of Justice’s multi-billion
dollar settlements with the banks, suggesting that
Brookstone’s cases were somehow connected. (FTC
Mot. USF ¶¶ 107-09.) Another mailer stated that
consumers might be entitled to relief as a result of
multibillion-dollar settlements with banks, with no
mention that Advantis was not a party to those
settlements. (FTC Mot. USF ¶ 111.) One mailer reads:
“[i]f you are behind on your payments act now to
preserve your legal rights because the law is on your
side,” representing to consumers that they had viable
claims against their lenders. (FTC Mot. USF ¶ 79.)
When the consumers called the Corporate Defendants, the sales agents would tell consumers about
the Corporate Defendants’ mass joinder cases as
proof of their validity, telling them that “[Brookstone/
Advantis] is a Pioneer in Mass Tort litigation and all
of our landmark cases are still going through the
court system. We have had some phenomenal results
in our individual cases and have been able to save
hundreds of homes and have achieved many confiden-

App.47a
tial settlements.” (FTC Mot. USF ¶¶ 93, 124.) The
“Objection Techniques” script instructed the sales
people, when a potential customer indicated they did
not want to spend any more money on their property
to say: “Sir, I know exactly how you feel and the
bottom line is, if we can’t custom tailor a program
that benefits you and your family[,] we won’t get to
write and you won’t sign it correct?” (FTC Mot. USF
¶ 131.) Another supplemental script directed sales
people to address questions about whether the mass
joinder is better than or different from a loan modification by stating:
Over the past few years we have taken the
steps to build solid relationships with the
major banking institutions to provide our
clients with the relief they seek. By having
the backing of a REPUTABLE law [f]irm
that has formed a strong relationship with
lenders as we have, you can rest assured
that we will be able to get you and your
family a permanent solution.
(FTC Mot. USF ¶ 132 (emphasis in original).)
Some consumers attended in-person sales meetings
with the Corporate Defendants’ “Banking Specialists,”
who were actually sales persons or “closers.” (FTC
Mot. USF ¶¶ 94-98.) At these meetings, the “Banking
Specialists” would show consumers a “Legal Analysis”
that stated consumers had multiple valid causes of
actions against their lenders with no discussion of
any defenses the lenders may have or the relative
weakness of the various claims. (FTC Mot. USF
¶¶ 141-44, 167.)

App.48a
The consumers declare they were solicited with
mailers, claiming, among other things, that the mass
joinder litigation would seek to “void your note[s],”
and that “our team of experienced lawyers offers you
a superior alternative to recovery.” (FTC Mot. USF
¶¶ 100-01.) At in person meetings, sales people made
various statements regarding consumers’ likelihood
of success and monetary relief, including: that they
had “a very strong case[;]” prevailing in the litigation
was “basically a done deal[;]” ‘it was not a question of
whether [the consumers] would win [the] cases, but
how much money [the consumers] would get[;]” “the
minimum amount [the consumer] would get would be
$75,000[;]” the consumer was “entitled to a refund as
a result of litigation between the Department of Justice
and Bank of America[;]” and “Brookstone would succeed
eventually.” (FTC Mot. USF ¶¶ 136-39, 147-66.) None
of these representations were accurate. The Corporate
Defendants did not seek to void notes, did not have
the promised experience or capabilities, and have
never prevailed4 in a mass joinder, thus failing to
obtain the represented relief. (FTC Mot. USF ¶¶ 186204.) “Some consumers who paid to be mass joinder
clients were never [even] added to a mass joinder
case.” (FTC Mot. USF ¶ 199.)
In opposition to the FTC’s Motion, Defendants
Foti and Marshall argue that the Corporate Defendants’
marketing was not deceptive, focusing on aspects of
4 Foti admits that Torchia declared: “Neither Brookstone nor
Advantis has ever won a mass joinder case. Because there is
always risk in litigation, I knew there was a possibility that we
could in fact lose all of the lawsuits and that payment to
Brookstone and Advantis would increase those consumers’
losses.” (FTC Mot. USF ¶ 186.)

App.49a
the marketing that were true. (Foti Opp’n at 6; Marshall Opp’n at 5.) However, even if some of the statements that the Corporate Defendants made as part of
their marketing were true, it does not change that
the Corporate Defendants made misrepresentations.
FTC v. Gill, 71 F. Supp. 2d 1030, 1044 (C.D. Cal.
1999) (“[B]ecause each representation must stand on
its own merit, even if other representations contain
accurate, non-deceptive information, that argument
fails.”).
Defendant Foti argues that because the retainer
agreement had a disclaimer in it, it nullifies any misrepresentations made in the marketing. (Foti Mot. at
14; Foti Opp’n at 8-9.) But this argument fails as a
matter of law. See Resort Car Rental Sys., Inc. v.
FTC, 518 F.2d 962, 964 (9th Cir. 1975) (“The Federal
Trade Act is violated if [the advertising] induces the
first contact through deception, even if the buyer
later becomes fully informed before entering the contract.”). Further, Foti admits a sales person told a
consumer that the disclaimer “was just legal words in
the retainer and they had to use them in the agreement,
but there was no risk of losing.” (FTC Mot. USF ¶ 150.)5

5 Defendant Foti also argues that when considering the net
impression of the Corporate Defendants’ promises about the
potential outcome of the litigation, the statements are not
misleading because “the concept of ‘filing a lawsuit’ is uniquely
easy for consumers to understand.” (Foti Opp’n at 7.) According
to Foti “[u]nlike other services, where consumers might be
misled by promises of successful results, consumers are wellexposed to, and can easily understand, the basic elements that
are present in all lawsuits. . . . ” (Foti Opp’n at 7-8.) The Court
rejects Defendant Foti’s argument that “the concept of ‘filing a
lawsuit’ is uniquely easy for consumers to understand.”

App.50a
Thus, the undisputed facts establish that the
Corporate Defendants violated the FTC Act as a matter
of law because the Corporate Defendants made numerous false and/or misleading material statements to
consumers, and Defendants raise no facts creating a
genuine dispute. See Stefanchik, 559 F.3d at 928.
3. The Corporate Defendants Violated the
MARS Rule
In 2009, Congress directed the FTC to prescribe
rules prohibiting unfair or deceptive acts or practices
with respect to mortgage loans. Omnibus Act, § 626,
123 Stat. at 678, as clarified by Credit Card Act,
§ 511, 123 Stat. at 1763-64. Pursuant to that direction,
the FTC promulgated the MARS Rule, 16 C.F.R. Part
322. The Dodd-Frank Act, § 1097, 124 Stat. at 210203, 12 U.S.C. § 5538, transferred rulemaking authority
over the MARS Rule to the Consumer Financial Protection Bureau, and the MARS Rule was recodified as
12 C.F.R. Part 1015, effective December 30, 2011.
The FTC retains authority to enforce the MARS Rule
pursuant to the Dodd-Frank Act § 1097, 12 U.S.C.
§ 5538.
The MARS Rule defines the term “mortgage
assistance relief service provider” as “any person that
provides, offers to provide, or arranges for others to
provide, any mortgage assistance relief service” other
than the dwelling loan holder, the servicer of a dwelling
loan, or any agent or contractor of such individual or
entity. 12 C.F.R. § 1015.2. Attorneys are covered by
the MARS Rule. See FTC v. A to Z Mktg., Inc., No.
13-00919-DOC (RNBx), 2014 WL 12479617, at *4 (C.D.
Cal. Sept. 17, 2014) (explaining that attorneys are
only exempt from the MARS Rule in “[u]nder certain

App.51a
conditions”). The Corporate Defendants were MARS
providers because they offered to provide mortgage
assistance relief services. See id.; (FTC Mot. USF
¶¶ 100, 104-07). In fact, Foti admits that the Corporate
Defendants were MARS providers and that the mass
joinder services were MARS. (See FTC Mot. USF ¶ 25.)
Plaintiff alleges that the Corporate Defendants
violated the MARS Rule because they: (1) failed to
make legally required disclosures (FAC ¶¶ 83); (2)
asked for, or received, payment before consumers had
executed a written agreement with their loan holder
or servicer that incorporates the offer obtained by
Defendants in violation of the MARS Rule (FAC ¶ 81);
and, (3) misrepresented material aspects of their
services (FAC ¶ 82).
a. The Corporate Defendants Failed to
Make Legally Required Disclosures
Under 12 C.F.R. section 1015.4, certain written
disclosures must be made to consumers if a company
is providing MARS. These disclosures include statements that a consumer does not have to accept the
relief, if any, obtained by the MARS provider and
does not have to make any payments until the consumer
has received the promised relief. 12 C.F.R. § 1015.4.
The Corporate Defendants did not include the requisite
disclosures in the mailers or the retainer agreements,
and therefore violated 12 C.F.R. section 1015.4. (See
FTC Mot. USF ¶ 185.)
b. The Corporate Defendants Took Advance
Fees in Violation of the MARS Rule
Under 12 C.F.R. section 1015.5, “[i]t is a violation
. . . for any mortgage assistance relief service provider

App.52a
to: [ ]Request or receive payment of any fee or other
consideration until the consumer has executed a
written agreement between the consumer and the
consumer’s dwelling loan holder or servicer incorporating the offer of mortgage assistance relief the provider obtained from the consumer’s dwelling loan
holder or servicer.” Essentially, the Corporate Defendants could only take a fee upon providing the promised
result. See 12 C.F.R. § 1015.5.
The Corporate Defendants charged consumers a
variety of advance fees. “Consumers paid an initial
fee for the mass joinder [cases], always exceeding
$1,000.” (FTC Mot. USF ¶ 169.) The consumers paid
“Legal Analysis” fees “in amounts ranging from $895$1500.” (FTC Mot. USF ¶ 168.) Consumers also “paid
monthly fees, in many instances $250 per month.” (FTC
Mot. USF ¶ 170.) All of the fees that the Corporate
Defendants collected were advance fees in violation
of the MARS Rule because the Corporate Defendants
did not win any of their mass joinder cases or obtain
the promised relief for the consumers. (FTC Mot. USF
¶ 186-96.)
c. The Corporate Defendants Made
Misrepresentations Regarding Material
Aspects of Their Services
As explained above, the undisputed facts demonstrate that the Corporate Defendants made misrepresentations regarding material aspects of their services.
See supra section V.A.2. This conduct is not only
considered a violation of the FTC Act, but is also
considered a violation of the MARS Rule. See, e.g., 12
C.F.R. § 1015.3 (“It is a violation of this rule for any
mortgage assistance relief service provider to engage

App.53a
in the following conduct: . . . [m]isrepresenting,
expressly or by implication, any material aspect of
any mortgage assistance relief service, including but
not limited to: (1) [t]he likelihood of negotiating,
obtaining, or arranging any represented service or
result . . . [;] (6) [t]he terms or conditions of any refund,
cancellation, exchange, or repurchase policy for a
mortgage assistance relief service, including but not
limited to the likelihood of obtaining a full or partial
refund, or the circumstances in which a full refund
will be granted . . . [;] (8) [t]hat the consumer will
receive legal representation. . . . ”).
d. The Attorney Exemption Does Not
Apply to the Corporate Defendants
Defendant Foti, who is not an attorney himself,
argues in his Motion for Summary Judgment that the
Corporate Defendants cannot be held liable for any
violations of the MARS Rule because the attorney
exemption applies. (Foti Mot. at 9.) In response,
Plaintiff argues that the attorney exemption is an
affirmative defense, and that because (1) Foti did not
plead this defense in his answer, and (2) Foti did not
identify the attorney exemption in response to Plaintiff’s
interrogatories requiring Foti to identify all defenses
on which he might rely, Foti should not be permitted
to assert this defense because the FTC did not have
the opportunity to seek discovery from Foti and third
parties to rebut it. (FTC Opp’n at 7.)
“While the general rule is that a defendant should
assert affirmative defenses in its first responsive
pleading, Fed. R. Civ. P. 8(c), the Ninth Circuit has
‘liberalized’ the requirement that a defendant must
raise affirmative defenses in their initial responsive

App.54a
pleading.” Helton v. Factor 5, Inc., 26 F. Supp. 3d
913, 921 (N.D. Cal. 2014) (citing Magana v. Commonwealth of the N. Mariana Islands, 107 F.3d 1436,
1446 (9th Cir. 1997)). “In the Ninth Circuit, a defendant ‘may raise an affirmative defense for the first
time in a motion for summary judgment only if the
delay does not prejudice the plaintiff.’” Id.
“Here, [Foti] attempt[s] to assert an . . . exemption
defense for the first time approximately” over a year
after the FTC filed its Amended Complaint against
Foti, and approximately one month before the discovery
cut-off deadline as stated in the January 10, 2017
Amended Scheduling Order. (See Dkt. Nos. 61, 169;
Foti Mot.) The Court need not determine whether Foti’s
“unexplained, inordinate delay in raising this defense
is prejudicial” to Plaintiff, as Foti raised this defense
only a month before the close of discovery because
the Court finds that the defense does not apply to the
Corporate Defendants’ actions here. See Ulin v. Lovell’s
Antique Gallery, No.C-09-03160 EDL, 2010 WL
3768012, at *13 (N.D. Cal. 2010) (prohibiting defendants from raising exemption defense for the first time
at the summary judgment stage).
Because the attorney exemption is an affirmative
defense, Defendant Foti has the burden of proof. See
FTC v. Lakhany, No. SACV 12-00337-CJC (JPRx), Dkt.
No. 136 at 5-6 (attorney exemption is a defense for
which defendants have the burden of proof); Barnes
v. AT & T Ben. Plan-Nonbargained Program, 718 F.
Supp. 2d 1167, 1173-74 (N.D. Cal. 2010) (“[A]n
affirmative defense . . . is a defense on which the
defendant has the burden of proof.”) (citing Kanne v.
Conn. Gen. Life Is. Co., 867 F.2d 482, 492 n.4 (9th
Cir. 1988)). To employ the attorney exemption, Defend-

App.55a
ant Foti must establish that the Corporate Defendants were ethically discharging their legal duties.
See 75 F.R. 75128, 715131-32. Here, Foti fails to put
forth facts establishing this defense, and thus the
exemption does not apply to the Corporate Defendants’ conduct. (See FTC SGD ¶ 116.)6

6 Defendants Marshall and Foti do not put forth evidence that
the Corporate Defendants were complying with legal ethical
duties sufficient to satisfy that the attorney exemption applies.
The evidence provided by the FTC suggests that the Corporate
Defendants did not comply with their ethical duties, and that
they were informed of their unethical practices. For example:
Brookstone received ethics advice that its “nonrefundable” flat fees were not true retainer fees: “The
retainer agreements should be amended to remove
the language that the retainer fees are non-refundable
unless the payment is used to insure availability and
not to any extent to compensate Brookstone for providing legal services. Given that Brookstone’s attorneys do not currently keep track of the time spent on
each client, it would be difficult for Brookstone to track
the time spent in case a client terminates Brookstone’s
representation before the matter is resolved or adjudicated. We recommend that Brookstone’s lawyers
begin keeping track of their time to provide a basis to
show that fees have been earned.
(FTC Mot. USF ¶ 172.) Brookstone also received ethics advice
noting that Brookstone did not perform conflicts checks when
retaining clients and stating that this was problematic. (FTC
Mot. USF ¶ 173.) In response to one piece of ethics advice, Foti
wrote: “I think we need to keep in mind he is an ethic’s attorney
so he is going to always say you shouldn’t do this you shouldn’t
do that.” (FTC Mot. USF ¶ 255.) Additionally, Brookstone
obtained ethics advice that paying sales people a bonus based
on the number of clients retained likely violated Brookstone’s
ethical duties. (FTC Mot. USF ¶ 240.)

App.56a
B. The Undisputed Facts Demonstrate that Foti
and Marshall Must Be Held Liable for the
Corporate Defendants’ Conduct
Injunctive relief against Defendants Foti and
Marshall is appropriate if the FTC establishes a corporation’s violations and establishes that Defendants
“participated directly in the acts or practices or had
the authority to control them.” FTC v. Publ’g Clearinghouse Inc., 104 F.3d 1168, 1171 (9th Cir. 1997).
Once injunctive liability is proven, Defendants Foti
and Marshall will be held monetarily liable if the
FTC establishes that that they had the requisite
“knowledge.” Id. at 1171.
1. Foti and Marshall Are Each Liable for
Injunctive Relief
Because the Court has concluded that the undisputed facts demonstrate that the Corporate Defendants violated the FTC Act and the MARS Rule as a
matter of law, the only remaining issue as to whether
Defendants Foti and Marshall are liable for
injunctive relief is whether they “participated directly
in the acts or practices or had authority to control
them.” See Publ’g Clearinghouse Inc., 104 F.3d at
1171. The FTC need not prove both participation and
control, either will suffice. Id.
The undisputed facts show that both Defendants
Foti and Marshall participated directly in the acts or
practices. Defendant Foti began working with Brookstone in late 2010. (FTC Mot. USF ¶ 215.) In November
2010, Kutzner sent Foti a Brookstone telemarketing
script, and Foti responded by telling Kutzner to send
him all other scripts because he was getting the
marketing and sales operation up and running, and

App.57a
he was going to “work on a little bit shorter process
[that] will still have the same effect with the client.”
(FTC Mot. USF ¶ 216.) Also in November 2010, Foti
emailed Kutzner, explaining that he is bringing in
numerous employees, several of whom are sales
people. (FTC Mot. USF ¶ 217.) Foti told Kutzner, “It
is go time let’s hit it full throttle.” (FTC Mot. USF
¶ 217.) One of the Corporate Defendants’ phone
directories identified Foti as “management.” (FTC
Mot. USF ¶ 220.) Another Corporate Defendant phone
directory identified Foti as “VP of Marketing.” (FTC
Mot. USF ¶ 221.)
Individual Defendants Foti, Kutzner, and Torchia
all signed their initials to a document titled “Deal
Mem.” (FTC Mot. USF ¶ 227.) In this Deal Memo, there
was a provision related to the day-to-day management
of Brookstone, which stated: “[T]here will be a majority
rule in the voting decision amongst the shareholders
of the firm and non-attorneys (Employees) Jeremy Foti
and Damian Kutzner.” (FTC Mot. USF ¶ 228.) Foti
himself has declared that his role with the Corporate
Defendants included: (1) “management services related
to referral services, hiring/recruiting, vendor relations,
IT relations, and data sources[;]” (2) “[o]btain[ing]
estimates and costs for expenses associated with day
to day operations[;]” (3) “[o]btain[ing] or arrang[ing]
for the preparation of law firm supplied creative
content, advertising, campaign management and other
related services[;]” and, (4) “[a]udit[ing] all invoices
and expenses provided by third-parties to ensure
accuracy, including but not limited to payroll bonuses
and employee compensation.” (FTC Mot. USF ¶ 231.)
At times, Foti would send emails to the Corporate
Defendants’ sales personnel regarding the sales process

App.58a
and guidelines. (FTC Mot. USF ¶ 241.) The undisputed
facts support that Foti was directly involved with
overseeing the sales persons working for the Corporate
Defendants, setting up training meetings and participating in meetings to determine the sales process.
(See, e.g., FTC Mot. USF ¶¶ 242-47.) Further, Torchia,
a purported owner of Brookstone, declared: “Although
Jeremy Foti was technically a ‘consultant’ for Brookstone, he was, along with Damian Kutzner, responsible for all non-legal aspects of Brookstone’s operations.”
(FTC Mot. USF ¶ 248.) Former Brookstone and
Advantis attorney Jonathan Tarkowski declared:
“Damian Kutzner and Jeremy Foti, another nonattorney, were responsible for Brookstone/Advantis
financial matters. Damian Kutzner and Jeremy Foti
supervised the individuals primarily responsible for
customer contact—the ‘Civil Litigation Representatives’
(CLRs) and ‘Banking Specialists.’” (FTC Mot. USF
¶ 249.) Foti attempts to create a disputed fact as to
his control over Brookstone and Advantis matters on
the basis that others also had control, but participation
or control by others does not preclude Foti’s participation or control. Foti can also simultaneously have
control over the Corporate Defendants’ operations and,
in fact, Foti directly participated in the Corporate
Defendants’ conduct. (See, e.g., FTC Mot. USF ¶¶ 24850.)
As to Defendant Marshall, he joined the scheme
as part of Advantis, seeking to transfer clients from
Brookstone to Advantis. (FTC Mot. USF ¶ 303.) Marshall sent letters to Brookstone clients informing
them that their cases were being transferred to
Marshall/Advantis. (FTC Mot. USF ¶ 304.) On
numerous occasions, Marshall requested that Kutzner

App.59a
and Foti begin fully marketing Advantis’ mass joinder
services urging them to “fully open marketing,” engage
marketing “full-on,” and “open up the marketing.”
(FTC Mot. USF ¶ 305.) Marshall scheduled a meeting
with the Brookstone/Advantis sales people to go over
the entire business, including sales scripts. (FTC
Mot. USF ¶ 309.) And Marshall appeared in the Wright
v. Bank of America litigation on behalf of all plaintiffs.
(FTC Mot. USF ¶¶ 310-11.) Marshall told Foti and
Kutzner that the Wright matter and his participation
in it and any settlement was dependent on him
“presenting well for Advantis.” (FTC Mot. USF ¶ 314.)
Marshall worked to ensure the Wright case “stay[ed]
on track” due to its importance and told Foti he had
“done all the right things to keep that baby alive.”
(FTC Mot. USF ¶ 315.)
After Marshall’s bar suspension concluded in 2016,
Marshall deepened his involvement in Brookstone
matters, telling Tarkowski that, pursuant to instructions from Foti and Kutzner, he would need “access
to all the pleadings for recent Brookstone joinder
cases that [Tarkowski] filed. [Marshall] need[ed] to
review and assess status of hearings, pleadings, next
steps, etc.” (FTC Mot. USF ¶ 317.)7
7 Marshall attempts to establish that the facts as to his involvement with the Corporate Defendants’ scheme are in dispute
based on his declaration, but “[a] conclusory, self-serving affidavit, lacking detailed facts and any supporting evidence, is insufficient to create a genuine issue of material fact.” See Publ’g
Clearing House, Inc., 104 F.3d at 1171; see also Dizon v. Asiana
Airlines, Inc., No. 16-01376-BRO (MRWx), 2017 WL 1498187, at
*3 (March 6, 2017). The Court therefore concludes that Defendant Marshall has not established any disputed facts with
respect to this issue.

App.60a
Courts are authorized “to permanently enjoin
defendants from violating the FTC Act if there is
some cognizable danger of recurring violation.” FTC
v. Gill, 71 F. Supp. 2d 1030, 1047. “As demonstrated by
the frequency of the misrepresentations . . . , defendants have exhibited a pattern of misrepresentations
which convinces this Court that violations of the
[MARS Rule] and of the FTC Act were systematic.”
See Gill, 71 F. Supp. 2d at 1047. “As to the possibility
of recurrence,” defendant Marshall continues to be
able to practice law, such that it is possible that he
could engage in similar conduct in the future. See id.
at 1047-48; (FTC Mot. USF ¶ 317 (showing that
Marshall’s “bar suspension concluded in 2016”)). As
to Foti, his involvement in the Corporate Defendants’
scheme was so extensive, and the Corporate Defendants made so many misrepresentations to consumers,
that in considering the undisputed facts, there is a
likelihood that Marshall will engage in similar conduct
in the future. Thus, there is a likelihood of recurring
violations, such that a permanent injunction against
Defendants Foti and Marshall is warranted. See id.
at 1047-48.
2. Foti and Marshall Are Monetarily Liable
Because Each Held the Requisite Knowledge
“The FTC may establish knowledge by showing
that the individual defendant had actual knowledge
of material misrepresentations, [was] recklessly indifferent to the truth or falsity of a misrepresentation, or
had an awareness of a high probability of fraud along
with an intentional avoidance of the truth.” Network
Servs. Depot, Inc., 617 F.3d at 1138-39 (internal quotation marks omitted). “The FTC is not required to

App.61a
show that the defendant actually intended to defraud
consumers.” Id. at 1139. “The extent of an individual’s involvement in a fraudulent scheme alone is sufficient to establish the requisite knowledge for personal
restitutionary liability.” FTC v. Affordable Media,
179 F.3d 1228, 1235 (9th Cir. 1999).
The undisputed facts establish that Defendants
Marshall and Foti had the requisite knowledge because
of their extensive involvement in the fraudulent scheme.
See id. Foti was involved in the drafting of at least
some of the language for the various mailers, arranging
for the mailers to be sent to consumers, providing
input on the content of scripts, distributing scripts to
the sales people, monitoring sales to consumers to
determine bonus figures, and receiving and responding
to consumer complaints. (See, e.g., FTC Mot. USF
¶¶ 216, 231, 260, 264-65, 269, 280, 286.)
Defendant Marshall appeared in the Wright case
and, after his bar suspension ended in late February
2016, he provided legal assistance on other Brookstone
matters. (FTC Mot. USF ¶¶ 310-11, 317.) Further,
Marshall also guided the sales staff on how to interact
with current and potential clients, and directed Kutzner
and Foti to issue marketing for Advantis. (FTC Mot.
USF ¶¶ 305, 309.) Marshall was aware that Torchia
and Brookstone were facing bar discipline related to
the mass joinder practice. (FTC Mot. USF ¶ 321.)
Notwithstanding Marshall’s knowledge of Torchia’s
California State Bar disciplinary issues related to
Brookstone’s mass joinder cases, Marshall did no
systematic analysis of the Brookstone mass joinder
cases, undertook no investigation and did not research
the bar complaints against Torchia at “any kind of
level of detail.” (FTC Mot. USF ¶ 322.) Marshall was

App.62a
also aware of Kuztner’s history, including that ULG
had been shut down by criminal law enforcement. (FTC
Mot. USF ¶ 323.)
Defendant Foti argues that he believed the
Corporate Defendants’ representations to be true,
that he had not done due diligence, and that he acted
on the advice of counsel. (Foti Opp’n at 28-29.) However, Defendant Foti’s arguments should be rejected,
because none of Foti’s arguments serve as a defense
to the knowledge standard. See Publ’g Clearing House,
104 F.3d at 1171 (intent to defraud not required);
Affordable Media, 179 F.3d at 1235 (defendants’ claim
to have done due diligence regarding truth of claims
does not defeat “knowledge”); FTC v. Cyberspace.com
LLC, 453 F.3d 1196, 1202 (9th Cir. 2006) (“[R]eliance
on advice of counsel [is] not a valid defense on the
question of knowledge. . . . ”).
Thus, the undisputed facts establish that both
Defendants Foti and Marshall are monetarily liable
because each held the requisite knowledge. See
Affordable Media, 179 F.3d at 1235 (“The extent of
an individual’s involvement in a fraudulent scheme
alone is sufficient to establish the requisite knowledge
for personal restitutionary liability.”).
3. Foti and Marshall Are Liable for the Full
Amount Paid by Consumers
“[T]he Ninth Circuit has held that the power to
grant any ancillary relief necessary to accomplish
complete justice necessarily includes the power to
order restitution.” Gill, 71 F. Supp. 2d at 1048. The
FTC does not need to show reliance by each consumer:
“Requiring proof of subjective reliance by each individual consumer would thwart effective prosecutions

App.63a
of large consumer redress actions and frustrate the
statutory goals of [Section 13(b)].” FTC v. Figgie Int’l,
Inc., 994 F.2d 595, 605 (9th Cir. 1993).8
The proper amount for restitution is the amount
that the “defendant has unjustly received.” FTC v.
Commerce Planet, Inc., 815 F.3d 593, 600 (9th Cir.
2016). To calculate the restitution awards, courts
employ a two-step burden-shifting framework. Id. at
603. “Under the first step, the FTC bears the burden
of proving that the amount it seeks in restitution
reasonably approximates the defendant’s unjust gains,
since the purpose of such an award is ‘to prevent the
defendant’s unjust enrichment by recapturing the
gains the defendant secured in a transaction.’” Id.
“Unjust gains in a case like this one are measured by
the defendant’s net revenues (typically the amount
consumers paid for the product or service minus refunds
and chargebacks), not by the defendant’s net profits.”

Id.

“If the FTC makes the required threshold showing,
the burden then shifts to the defendant to show
that the FTC’s figures overstate the amount of the
defendant’s unjust gains.” Id. at 604. “Any risk of
uncertainty at this second step ‘fall[s] on the wrongdoer
whose illegal conduct created the uncertainty.’” Id.
Here, “[t]he FTC carried its initial burden at step
one.” See id. The FTC presented undisputed evidence
8 Additionally, summary judgment is appropriate even if Defendants Foti and Marshall presented some satisfied consumers
because “the existence of some satisfied customers does not
constitute a defense under the FTCA.” See Stefanchik, 559 F.3d
at 929 n.12 (quoting FTC v. Amy Travel Serv., Inc., 875 F.2d
564, 572 (7th Cir. 1989)).

App.64a
that that the Corporate Defendants received
$18,146,866.34 in net revenues, taking into account
refunds, chargebacks, and transfers among the
Corporate Defendants’ bank accounts. See id.; (FTC
Mot. USF ¶ 213). The FTC having proved that all of
the $18,146,866.34 represented presumptively unjust
gains, the burden shifted to Defendants Foti and
Marshall to show that the FTC’s figure overstated
the Corporate Defendants’ restitution obligations.
See Commerce Planet, Inc., 815 F.3d at 604. The Court
does not find that Foti or Marshall have met their
burden discounting the FTC’s calculation. (See FTC
Mot. USF ¶ 213.) Defendant Foti attempted to meet
his burden by attaching an excel sheet containing
various data. (See Dkt. No. 287-4 ¶ 2(mm).) However,
Defendant Foti did not proffer any information explaining what the excel sheet contains or that the document accounts for all of the Corporate Defendants’
revenue. (See Dkt. No. 287-4 ¶ 2 (mm).) The evidence
that Defendant Foti puts forth “sheds no light on
what portion of the . . . net revenues represents unjust
gains.” See Commerce Planet, Inc., 815 F.3d at 604.
Thus, Defendants Marshall and Foti are liable for the
full amount paid by consumers.9

9 During the hearing, Foti explained that the excel document
contains information demonstrating that the amount clients
paid to Brookstone totaled approximately $11 million. However,
Defendant Foti has not proffered evidence supporting that this
calculation includes all of the Corporate Defendants’ revenue.
Thus, the Court adopts the FTC’s calculation as it is supported
by the undisputed evidence.

App.65a
VI. Conclusion
For the foregoing reasons, Plaintiff’s Motion for
Summary Judgment against Defendants Jeremy Foti
and Charles Marshall is GRANTED.
Defendant Jeremy Foti’s Motion for Summary
Judgment or, in the alternative, Motion for Summary
Adjudication is DENIED.
IT IS SO ORDERED.
rf
Initials of Preparer

App.66a
ORDER OF THE UNITED STATES COURT OF
APPEALS FOR THE NINTH CIRCUIT DENYING
PETITION FOR REHEARING EN BANC
(SEPTEMBER 24, 2019)
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
________________________
FEDERAL TRADE COMMISSION,

Plaintiff-Appellee,
v.
CHARLES T. MARSHALL,

Defendant-Appellant.

________________________
No. 17-56476

D.C. No. 8:16-cv-00999-BRO-AFM
Central District of California, Santa Ana
Before: M. SMITH and FRIEDLAND, Circuit Judges,
and SIMON, District Judge.
The panel has unanimously voted to deny appellant’s petition for rehearing. Judge Smith and Judge
Friedland have voted to deny the petition for rehearing en banc, and Judge Simon so recommends. The
full court has been advised of the petition for rehear The Honorable Michael H. Simon, United States District
Judge for the District of Oregon, sitting by designation.

App.67a
ing en banc, and no judge has requested a vote on
whether to rehear the matter en banc. Fed. R. App.
P. 35.
The petitions for rehearing and rehearing en
banc are DENIED.

App.68a
ANSWERING BRIEF OF THE
FEDERAL TRADE COMMISSION
(NOVEMBER 14, 2018)
IN THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
________________________
FEDERAL TRADE COMMISSION,

Plaintiff-Appellee,
v.
CHARLES T. MARSHALL,

Defendant-Appellant.

________________________
No. 17-56476

On Appeal from the United States District Court
for the Central District of California
No. 8:16-cv-00999-BRO-AFM
Hon. David O. Carter
Alden F. Abbott

General Counsel

Joel Marcus

Deputy General Counsel

Michael D. BERGMAN

Attorney

Federal Trade Commission
600 Pennsylvania Avenue, N.W.
Washington, D.C. 20580
(202) 326-3184

App.69a

Of Counsel:
Benjamin J. Theisman
Gregory J. Madden
Federal Trade Commission
Washington, D.C. 20580
INTRODUCTION
Charles Marshall and other persons and companies
he worked with in a common enterprise ran a deceptive
scheme that falsely promised struggling homeowners
relief from their mortgage obligations and monetary
damages, in exchange for unlawful up-front fees.
Marshall did not start the scheme, but he and
his law firm, Advantis Law Group PC, played a major
role in it starting in February 2015, working with the
original company, Brookstone, and other principals
to further the scheme under a joint Brookstone/Advantis
umbrella, while also transitioning clients and operations
to Advantis. All the while, he knew that several of
Brookstone’s principals had already faced charges of
fraud and other unethical conduct based on similar
activities, but decided to move forward anyway. Under
his watch, consumers lost $1.8 million.
The district court found that undisputed evidence
proved that Marshall’s law firm and its predecessors
and associated companies violated the FTC Act and
the Mortgage Assistance Relief Services Rule (the
MARS Rule). It held Marshall personally liable for the
unlawful acts, enjoined him from further participation
in the mortgage relief business, and entered an equitable monetary judgment against him.

App.70a
QUESTIONS PRESENTED
1. Whether an unsupported declaration submitted
by Marshall showed a dispute of material fact on the
questions whether Marshall’s law firm violated the
FTC Act and the MARS Rule and whether Marshall is
personally liable for the firm’s actions;
2. Whether the district court should have excused
the unlawful conduct under the attorney exception to
the MARS Rule;
3. Whether the district court entered Final
Judgment in violation of Fed. R. Civ. P. 63;
4. Whether the district court properly declined to
allow Marshall to amend his answer or extend discovery;
and
5. Whether the district court properly held Marshall
in contempt for using frozen funds to pay attorney’s fees.
JURISDICTION
The FTC agrees with appellant’s jurisdiction
statement, except that the Final Judgment on appeal
was entered on September 21, 2017, not September 8,
2017. DE.360 [ER_8-24].1
STATEMENT OF THE CASE
A.

The Brookstone/Advantis Scheme

Starting in 2011, two related companies going by
the name of “Brookstone Law Group” (one based in
1 “DE.xxx” refers to the district court’s Docket Entry number.
“ER” refers to Appellant’s Excerpts of Record. “SER” refers to
the FTC’s Supplemental Excerpts of Record, filed concurrently
with this brief.

App.71a
California and one in Nevada), and founded by Jeremy
Foti, Damian Kutzner, and Vito Torchia, engaged in
a scheme to lure consumers into paying for bogus
mortgage relief services. Their pitch was that if a
homeowner paid substantial up-front fees to become
a member of a “mass joinder” lawsuit (in which numerous people are joined together as plaintiffs, but are
not certified as a class), they were highly likely to gain
more favorable mortgage terms and substantial money
damages. Beginning in 2015, Marshall became associated with the scheme by assisting the Brookstone
entities and opening a new law firm, Advantis Law
Group PC, to further the scheme.
Mortgage relief services have been rife with fraud
for years. Advertising for such services is therefore
strictly regulated by the Mortgage Assistance Relief
Services (MARS) Rule, 16 C.F.R. Part 322, recodified
as 12 C.F.R. Part 1015 (Regulation O).2 As pertinent
here, the MARS Rule prohibits misrepresentations in
the sale of MARS services, 12 C.F.R. § 1015.3(b), requires certain disclosures, id. § 1015.4, and forbids
the collection of fees until after the promised result
has been delivered, id. § 1015.5. The FTC Act separately prohibits “deceptive acts or practices in or
affecting commerce.” 15 U.S.C. § 45(a)(1).
The Brookstone/Advantis scheme violated all of
those prohibitions. The firms attracted customers
2 The Dodd-Frank Act, Pub. Law 111-203, 124 Stat. 1376, 210203 (July 21, 2010), transferred rulemaking authority in this area
from the FTC to the newly formed Consumer Financial Protection Bureau (CFPB). The CFPB then re-codified the FTC’s
MARS Rule as its own “Regulation O.” The FTC has concurrent
authority with the CFPB to enforce the MARS Rule, 12 U.S.C.
§ 5538(a)(3).

App.72a
through mass mailers promising that participation in
mass joinder lawsuits against lenders was very likely
to improve their mortgage terms by voiding their notes
or saving their homes from foreclosure, and that class
members would receive substantial monetary awards
(typically $75,000). DE.341 ¶¶ 79, 92, 99, 100, 103
[ER_2264-66, 2286-88, 2295-99, 2304-06].3 They touted
huge multi-billion settlements by major banks (some
brought by the Department of Justice), stating that
defendants’ clients could be entitled to those funds.
DE.341 ¶¶ 107-09 [ER_2320-26]. These promises were
untrue. The lawsuits could not seek to void the
consumers’ mortgage notes because, if they had done
so, they would have been dismissed for misjoinder
under the Federal Rules of Civil Procedure. See DE.341
¶ 197 [ER_2451].
Defendants touted themselves as a “national” law
firm with experience litigating or settling “mass
joinder” suits. DE.341¶¶ 101-02 102 [ER_2291-2304].
In fact, none of the lawyers (including Marshall) had
experience litigating mass joinder cases. DE.341 ¶¶ 200,
202-03 [ER_2453-56]. Nor had they ever won a judgment in a mass joinder suit; indeed, all but one of
their attempts have been dismissed and none resulted
in a judgment. DE.341 ¶¶ 186-96, 198 [ER_2441-52].
The single remaining case, Wright v. Bank of America,

3 DE.341 is the FTC’s amended Undisputed Statement of Facts
and Conclusions of Law on Reply, which the district court relied
upon in making its summary judgment decision. It consists of
the FTC’s Undisputed Statement of Facts (with supporting evidence), defendants’ responses (with supporting evidence), and
the FTC’s reply. Citations to DE.341 in this brief include the
FTC’s supporting evidence reflected in that document.

App.73a
has not advanced beyond the filing of the complaint.
DE.341 ¶ 42 [ER_2229].4
When consumers called in response to the mailers,
sales agents repeated many of the same deceptive
claims, including the firms’ experience suing major
banks in which they obtained “some phenomenal
results” that “sav[ed] hundreds of homes,” and claiming
as their own victories successful litigation by the government against major banks. DE.341 ¶¶ 118-20,
123-28 [ER_2340-46, 2349-63]. And they trumpeted
their efforts in the “prominent” Wright v. Bank of
America mass joinder case. DE.341 ¶¶ 129-30 [ER_236366]. Many of these claims were repeated on the
Brookstone and Advantis websites. For the reasons
stated above, those claims were all false.
Consumers still on the hook met with a “Banking
Specialist” (a non-attorney sales representative), who
showed them a “Legal Analysis,” which had not been
reviewed by a lawyer. It represented that consumers
had many valid claims against their lenders, but failed
to discuss the relative weakness of such claims. DE.341
¶¶ 94, 133, 141-44, 159, 167 [ER_2289-90, 2372-74,
2389-95, 2408-09, 2416-18]. The Banking Specialists
repeated the same lies as before: that consumers had
“a very strong case, it was basically a done deal,”
they faced “no risk of losing,” and were “guaranteed

4 At this point, a demurrer is pending and many of the plaintiffs have stipulated to dismiss their claims with prejudice in
exchange for Bank of America’s agreeing not to seek costs.
DE.341 ¶¶ 188-90 [ER_2443-45].

App.74a
$75,000.” DE.341 ¶¶ 149, 152-66 [ER_2399-2400,
2402-2415].5
In addition to the misrepresentations, Brookstone/
Advantis violated the MARS Rule by collecting upfront
fees, including $895 for the “Legal Analysis,” an
initial litigation retainer fee of up to $3,000, and
monthly retainer payments. DE.341¶¶ 168-70 [ER_241825]. Some consumers who paid the fees were never even
added to a mass joinder case. DE.341 ¶ 199 [ER_245253]. The defendants, as Marshall admitted, also did not
deposit these fees into client trust accounts. DE.341
¶ 171 [ER_2426].
Nor did Brookstone/Advantis provide the written
disclosures required by the MARS Rule. DE.341 ¶ 185
[ER_2438-41]. These include statements that the
consumer does not have to make any payments until
they have received the promised relief. See 12 C.F.R.
§ 1015.4.
B.

Marshall Takes a Leading Role in the Scheme

In 2015, Marshall joined the scheme. At the time,
Marshall was aware of disciplinary bar proceedings
and enforcement actions against Brookstone and its
officers, all relating to its mass joinder practice.
DE.341 ¶¶ 321-23, 328, 331 [ER_2604-06, 2608-09,
2611]; DE.313-1 ¶ 45 (Marshall admits he knew of

5 These deceptive statements are attested to by numerous
consumer declarations reflected in the FTC’s Undisputed Statement of Facts (which appear in the first column of DE.341), as
well as a consumer survey establishing that consumers understood the representations as a promise of mortgage relief.
DE.341 ¶¶ 175-84 [ER_2432-38].

App.75a
Broderick’s past) [ER_ 2150].6 His emails document
his understanding that those actions were creating “a
lot of liability for me,” but he forged ahead anyway
because “[a]t the end of the day, . . . this is fundamentally a business decision. So I am moving forward in
that light. The business prospect still looks quite
good.” DE.341 ¶ 332 [ER_2612-13] (citing DE.218-2
at Page ID 6053 [SER_69] (Ex. 37).7
Marshall, an attorney, participated in the scheme
through a law firm called the Advantis Law Group PC
(ALG), which he co-owned and operated. DE.341 ¶ 60
[ER_2245-46] (citing DE.284-8 at Page ID 7485, 751926 (Ex. 34) [ER_924-31]); DE.313-1 ¶ 9 [ER_2138]
(Marshall does not dispute ownership of ALG); DE.341
¶¶ 61, 62 [ER_2246-47]. Around the same time, the
scheme established another entity called Advantis
Law PC (AL). Despite the slight difference in the
name, the two Advantis entities operated as one, with
Marshall deeply involved in its operations (along
6 Marshall was no stranger to MARS-related abuses. In 2011,
he stipulated to findings in state court that he violated his
ethical obligations to five different sets of clients whom he
represented on short sale and loan modification matters.
DE.341 ¶ 351 [ER_2627-28]; DE.313-1 ¶ 53 (Marshall does not
dispute this fact) [ER_2153]. Specifically, he took advance fees
for work that he did not perform. Id. Similarly, in 2013 and
again in 2015, Marshall stipulated that he took illegal advance
fees for loan modification work. DE.341 ¶¶ 352-55 [ER_262829]. In both instances, he told his clients the fees were for “litigation” that he never in fact pursued. Id.
7 Exhibits referenced in DE.218-2 are authenticated through
the Declaration of Gregory Madden in Support of Plaintiff’s
Opposition to Motion to Dissolve or Otherwise Modify Preliminary Injunction as to Defendant Charles T. Marshall, DE.218-1
[SER_51-56].

App.76a
with Foti and Kutzner). They shared office space.
DE.341 ¶¶ 64-67 [ER_2248-51]; DE.313-1 at 5
[ER_2139] (Marshall does not respond to this asserted
fact); DE.41-2 at Page ID 2511 [SER_206] (“Advantis
Law, PC” indicated at same location as other entities
in Santa Ana, CA). And as described below, “Advantis,”
“Advantis Law,” and “Advantis Law Group” were used
interchangeably in emails, correspondence, and marketing materials; Marshall was identified with all three
names.
ALG used the “Advantis Law” website (www.
advantislaw.com), DE.284-8 at Page ID 7485, 753839 (Ex. 60) [ER_889-90, 943-44], and did not have its
own website. Marshall knew about the website, knew it
included his name, image, and title as “Director,” and
knew it claimed credit for the Wright case. DE.284-14
at Page ID 8413, 8414 (RFAs nos. 8, 11) [ER_1997];8
DE.218-2 at Page ID 6073 (Marshall Dep. at 243:1114) [SER_89]. He ensured that his name was removed
from the site when his law license was suspended
during the winter of 2015-16. DE.284-8 at Page ID
7538-39 (Ex. 60) [ER_943-44],
Marshall was identified as the attorney for
“Advantis Law, PC” in an advertising mailer sent out
to prospective clients, which also listed “Advantis
Law Group” in its header. DE.341 ¶ 110 [ER_2326-27]
(citing DE.41-2 at Page ID 2511 [SER_206]. Marshall
signed a payment processing agreement as “President”
8 Cites referring to “RFA,” are the FTC’s First Requests for Admission issued to Marshall pursuant to Fed. R. Civ. P. 36. DE.28414 at Page ID 8410-8420 [ER_1993-2003]. Because Marshall did
not respond to these Requests, he has admitted those facts. See
Fed. R. Civ. P. 36(a)(3).

App.77a
for “Advantis Law.” DE.341 ¶ 319 [ER 2603] (citing
DE.284-11 at Page ID 7836-40 [ER_ 1248-52]). He
had an Advantis Law email address (“Charles@
AdvantisLaw.com“). DE.341 ¶ 306 [ER_2592-93] (citing
DE.284-14 at Page ID 8413, 8417 (RFA no. 47.b)
[ER_1996, 2000]).
In negotiating their business arrangement, Marshall and the Brookstone partners referred to their
new business operation interchangeably as “Advantis”
or “Advantis Law.” DE.218-2 at Page ID 6055-57
[SER_71-73] (Ex. 30); DE.284-8 at Page ID 7485, 751718 [ER_890, 922-23] (Ex. 32). In his deposition testimony, Marshall referred to “Advantis,” “Advantis Law,”
and “Advantis Law Group” interchangeably. DE.28414 at Page ID 8125, 8285-86 (Marshal Dep. 76:677:2), id. at Page ID 8290 (Marshall Dep. 97:6-98:12,
100:2-100:5) [ER_1868-69, 1873]. Indeed, after the
FTC filed its complaint in this very case naming both
Advantis Law PC and Advantis Law Group PC as
defendants, Marshall entered an appearance as attorney for both of them, in which capacity he signed the
stipulated preliminary injunction on behalf of both.
DE.341 ¶ 320 [ER_2603-04] (citing DE.50 at Page ID
2959 [SER_177]; DE.53 at Page ID 2967-70 [SER_13841]; DE.53-1 at Page ID 2972-3005 [SER_143-76]).
Through Advantis, Marshall continued the scheme
begun by Brookstone. He signed letters informing
Brookstone clients that their cases were being transferred to “Advantis Law Group, PC,” in which “Advantis
Law” will be filing “your needed lawsuit.” See DE.341
¶ 304 [ER_2590] (citing DE.218-2 at Page ID 59966003 (Ex. 46) [SER_56-63]). His emails gave instructions on the “Brookstone to Advantis client hand-off,”
including “clients still positioned with Brookstone,

App.78a
but subject to transfer to Advantis.” DE.341 ¶ 303
[ER_2589-90] (citing DE.218-2 at Page ID 6004 (Ex. 44)
[SER_64], id. at Page ID 5996-6003 (Ex. 46) [SER_5663]; id. at Page ID 6005 (Ex. 48) [SER_65]). He
received numerous emails about Advantis matters,
including the transition from Brookstone, from employees using their advantislaw.com email addresses.
DE.341 ¶ 307 [ER 2593-94] (citing DE.218-2 at Page
ID 6053 (Ex. 37) [SER_69]; id. at Page ID 5996-6003
(Ex. 46) [SER_56-63]; id. at Page ID 6007-08 (Ex. 57)
[SER_67]); DE.313-1 ¶ 24 [ER_2144] (Marshall does
not dispute this fact).
At times, he also performed legal work on
Brookstone mass joinder cases. DE.284-14 at Page ID
8413, 8418-19 (RFA nos. 56-62) [ER_1996, 2001-02].
For example, after his bar suspension ended in April
2016, he sought “access to all the pleadings for recent
Brookstone joinder cases that [Brookstone] filed” in
order to “assess status of hearings, pleadings, next
steps, etc.” DE.341 ¶ 317 [ER_2601-02] (citing DE.2848 at Page ID 7485 ¶ 4. h., 7537 (Ex. 53) [ER_890, 942]).
Marshall represented all the plaintiffs in the

Wright litigation as an attorney for Advantis Law

Group PC. DE.341 ¶¶ 310-11 [ER_2596-97]. His emails
stress that his representation in the Wright matter
was critical to moving the case forward, that he worked
hard “to ensure that the case stays on track,” and
emphasized the need that he “present[ ] well for Advantis
(which I will do).” DE.341 ¶¶ 314-15 [ER_2598-2600]
(citing DE.218-2 at Page ID 6006 (Ex. 55) [SER_66];
id. at Page ID 6607 (Ex. 57) [SER_67]. He also commented that an upcoming amendment to the Wright complaint “will serve as a template and baseline for our
own Advantis joinders.” DE.218-2 at Page ID 6007

App.79a
(Ex. 57) [SER_67]; DE.284-8 at Page ID 7489 ¶ 5
[ER_894].
He also made sure Advantis marketing and client
development moved forward. He provided to Foti and
Kutzner “needed documents to submit for Advantis
Launch,” DE.284-11 at Page ID 7835 [ER_1247];
DE.284-8 at Page ID 7484 ¶ 4.mmm, 7487 [ER_889,
892], and discussed meeting a prospective client “who
is a strong prospect for our first Advantis joinder.”
DE.218-2 at Page ID 6007 (Ex. 57) [SER_67]. He
discussed scheduling a meeting “to cover all relevant
areas to Advantis legal practice, from telephone scripts,
to proceedings, to client management, including
working on mass joinder complaints.” DE.341 ¶ 309
[ER_2595-96] (citing DE.284-8 at Page ID 7485 ¶ 4.e,
7533-34 (Ex. 41) [ER_890, 938-39]; DE.313-1 ¶ 26
[ER_2144] (Marshall does not deny scheduling a
meeting). He requested that Foti and Kutzner “fully
open marketing,” that the marketing “be full on,” and
“to open up the marketing” for Advantis mass joinder
cases. DE.341 ¶ 305 [ER_2590-91] (citing DE.218-2
at Page ID 6078 (Ex. 54) [SER_94]; DE.218-2 at Page
ID 6006 (Ex. 55) [SER_55]); DE.218-2 at Page ID 6094
(Ex. 56) [SER_110]; DE.313-1 ¶ 22 [ER_2143] (Marshall
admits he sent emails about marketing), but relied
on others to ensure the marketing was legally compliant. DE.341 ¶ 326 [ER_2607]. He provided instructions to staff to set legal fees “for Advantis clients”
and for “ALG.” DE.284-8 at Page ID 7485 ¶ 4.f, 7535
[ER_890, 940] (Ex. 43); DE.284-14 at Page ID 8413,
8416 [ER_1996, 1999] (RFA no. 32).
Marshall knew that Advantis misrepresented
various aspects of its practice. He emailed Foti that
Advantis was not a “group of attorneys,” as the firm

App.80a
was marketed, but that Marshall was the “only attorney
moving forward.” DE.218-2 at Page ID 6053 [SER_69]
(Ex. 37); see DE.341 ¶ 333 [ER_2613]. Marshall knew
that the advantislaw.com website misrepresented
various facets of ALG’s practice, including when it
began, practice areas, locations, attorneys, paralegals,
and legal assistants. DE.284-14 at page ID 8413, 841516 [ER_1997-99] (RFA nos.13-27); DE.218-2 at Page
ID 6073 [SER_89] (Marshall Dep. at 241:1-244:11);
see DE.341 ¶ 334 [ER_2614].
The undisputed facts showed that Brookstone and
Advantis (both Advantis Law Group PC and Advantis
Law PC) operated as a common enterprise. They had
significant overlap in owners and direct overlap in
control persons, and they shared offices, employees,
and clients. They also assisted one another in furthering
the scheme, with Marshall and Advantis working on
the Wright case and other Brookstone mass joinder
cases together, and both firms using virtually the
same misrepresentations in mailers, sales scripts,
and websites. DE.341 ¶¶ 21-24, 26-31; 64-67, 74-79,
80-91 [ER_2203-06, 2211-19, 2248-51, 2260-65, 226686]; DE.313-1 at 2-6 [ER_2136-2140] (Marshall’s declaration failed to dispute any of the facts asserted in
the cited DE.341 paragraphs); DE.284-14 at Page ID
8414-19 [ER_1997-2002] (RFA nos. 11-12, 28-31, 3346, 56-68). During the period Marshall participated in
the scheme (from February 27, 2015 until it was shut
down on June 1, 2016), the enterprise collected
$1,784,022.61 in net revenues, after deducting refunds

App.81a
and credit card chargebacks and reconciling internal
corporate transfers. DE.341 ¶ 214 [ER_ 2471-72].9
C.

The FTC’s Enforcement Lawsuit
1. The Complaint and Preliminary Relief

On May 31, 2016, the FTC charged Marshall,
Advantis Law PC, Advantis Law Group PC, the
California and Nevada Brookstone entities, and four
other individuals with violating the FTC Act, 15 U.S.C.
§ 45(a), and the MARS Rule, 12 C.F.R. Part 1015.
DE.1.10 The FTC also moved for a temporary restraining order (TRO) to freeze the defendants’ assets
and appoint a temporary receiver, which the court
granted the following day. DE.23 [ER_151-82]. The
TRO appointed a temporary receiver and froze all of
Marshall’s assets as of June 1, 2016, as well as any
after-acquired assets that were “derived, directly or
indirectly, from the Defendants’ activities” charged in
the complaint. Id. at 12 § VI [ER_162].
On June 20, 2016, Marshall filed an appearance
specifically on behalf of both Advantis entities by
filing the “Notice of Appearance on behalf of his codefendants ADVANTIS LAW P.C. and ADVANTIS
LAW GROUP P.C.” DE.50 at 1 [SER_177] (caps in
original). He later stipulated to entry of a preliminary
injunction (PI), incorporating the terms of the TRO,
including the asset freeze, individually, and on behalf
9 Bank records for Brookstone and Advantis together show net
revenues of $18,146,866.34 during the entire scheme. DE.341
¶ 213 [ER_2471].
10 On July 5, 2016, the FTC amended its complaint to add
Jeremy Foti as a defendant. DE.61 [ER_190-212].

App.82a
of both Advantis entities. DE.53 [SER_138-41]; DE.57
at 14-15 § VIII [ER_130-31]. The court issued the
stipulated PI on June 24, 2017. DE.57 [ER_117-50].
2. Marshall’s Answer and Subsequent Motions to
Amend the Answer and to Extend Discovery
Marshall filed his answer on November 14, 2016,
several months after it was due. Instead of admitting
or denying the allegations, Marshall invoked a blanket
Fifth Amendment right not to incriminate himself as
to any allegation. DE.149 [ER_213-15]. The court’s
scheduling order set March 6, 2017, to amend pleadings.
DE.169 at 12 [SER_137]. Marshall waited more than
two months after the deadline, until May 15, 2017, to
seek leave to file an amended answer, in which he
abandoned his prior invocation of the Fifth Amendment,
and to assert affirmative defenses. DE.238 [ER_378420].
The court denied the motion because Marshall had
not acted diligently and thus failed to establish good
cause under Fed. R. Civ. P. 16(b)(4). DE.259 [ER_103].
Marshall failed to explain how the new information
in his amended answer would have been self-incriminating and could not have been included in his original answer or before the amendment filing deadline.
Id. at 9 [ER_111]. The court also found that amendment would result in “undue delay” and would prejudice the FTC. Id. at 11 [ER_113]. Undeterred, on
July 31, 2017, Marshall sought again to file an
almost-identical amended answer, DE.296 [ER_2075],
without addressing any of the deficiencies the court
had previously identified. The court denied this motion
for lack of good cause. DE.343 at 5-6 [ER_68-69].

App.83a
Likewise, notwithstanding Marshall’s failure to
engage in discovery, on July 24, 2017 (only three
weeks before the cut-off date), he moved to extend
discovery and to continue the trial date for at least
five months. He explained the extension was necessary
because he had withdrawn his Fifth Amendment claim,
so he needed additional time to engage in discovery
and prepare for trial. DE.292 [ER_2035-51]. The court
denied Marshall’s extension request because he had
failed both to pursue his claims diligently and to
comply with the court’s orders and procedures, particularly his failure to provide Rule 26 initial disclosures or take discovery. DE.336 at 5-6 [ER_75-76].
3. Contempt Order
Marshall became aware of the TRO, including the
asset freeze, on June 2, 2016, when he was contacted
by the Receiver. DE.260 at 8 [ER_90]; DE.232-1 ¶¶ 47 [ER_325-26]. Four days later, however, he nevertheless paid $24,500 to his criminal defense lawyer.
DE.260 at 9 [ER_91]; DE.221-1 ¶ 4 & Att.1 [ER_297,
299]. The FTC moved to hold Marshall in contempt
because he had paid the money out of frozen funds
despite being aware of the asset freeze. DE.220
[ER_275-99].
On June 12, 2017, the district court held Marshall
in contempt and ordered him to purge the contempt
by paying $24,500 to the Receiver and providing a
financial disclosure statement to the FTC. DE.260 at
18-19 [ER_100-01]. The court concluded that Marshall
“did not substantially comply with the asset freeze

App.84a
provisions; rather, he directly contradicted the Court’s
order by dissipating funds.” Id. at 12 [ER_94].11
4. Summary Judgment Order
The FTC and Foti cross-moved for summary
judgment. DE.284 (FTC) [ER_580-628]; DE.287 (Foti).
On September 5, 2017, the court, Judge Beverly Reid
O’Connell, granted the FTC’s motion and denied Foti’s.
DE.353 [ER_41-64]. The FTC also moved for a default
judgment against the two Brookstone and the two
Advantis corporate defendants, DE.295 [ER_2061-74],
which the court granted. DE.347 [SER_22-36].
In its summary judgment ruling, the district court
first held that undisputed facts showed that Brookstone
and Advantis formed a “common enterprise.” DE.353
at 9-10 [ER_49-50]. “[E]ntities constitute a common
enterprise when they exhibit either vertical or
horizontal commonality—qualities that may be
demonstrated by a showing of strongly interdependent
economic interests or the pooling of assets and
revenues.” FTC v. Network Servs. Depot, Inc., 617 F.3d
1127, 1142-43 (9th Cir. 2010) (quoted at DE.353 p.9
[ER_49]). Brookstone and the Advantis practices
“shared staff and office space in multiple locations,”
“had significant overlap in owners and direct overlap
in control persons,” and “assisted one another in furthering the scheme, . . . using virtually the same mis11 Marshall did not comply with the court’s order. Instead, on
June 19, 2017, Marshall filed in this Court an emergency
petition for writ of mandamus and a stay of the contempt order
pending resolution of the petition. DE.268. This Court denied
both the stay request and the petition. Marshall v. U.S.D.C.
Central Dist. Calif., Santa Ana, No. 17-71781, Orders of June 30,
2017, and Sept. 12, 2017.

App.85a
representations in mailers, scripts, and websites.”
DE.353 at 9-10 [ER_49-50].
The court next held that undisputed facts showed
that the corporate defendants violated Section 5 of the
FTC Act by making “numerous false and/or misleading
material statements to consumers.” Id. at 10-13
[ER_50-53]. Defendants misrepresented the benefits
of consumers participating in their “mass joinder”
litigation program, including having their mortgages
voided or their terms improved or receiving large
monetary damages. Defendants also deceived
consumers about their lawyers’ experience litigating,
winning, or settling such cases. Id. at 10-11 [ER_5051]. The undisputed facts showed, however, that
“[n]one of these representations was accurate. The
Corporate Defendants did not seek to void notes, did
not have the promised experience or capabilities, and
have never prevailed in a mass joinder [case], thus
failing to obtain the represented relief. Some consumers . . . were never [even] added to a mass joinder
case.” Id. at 12 [ER_52].
The undisputed record also showed that the
corporate defendants violated the MARS Rule. They
failed to make required disclosures, collected forbidden
advance fees, and misrepresented material aspects of
their services. Id. at 13-15 [ER_53-55]. The court
rejected the claim that the attorney exception to the
MARS Rule applied because “Marshall and Foti do not
put forth evidence that the Corporate Defendants were
complying with legal ethical duties sufficient to satisfy
that the attorney exemption applies.” Id. at 16-17 &
n.6 [ER_55-56].
The court then turned to Marshall’s personal
liability for the acts of the corporate defendants. Indi-

App.86a
viduals can be held liable for corporate conduct if
they have “participated directly in the acts or practices
or had authority to control them.” FTC v. Publ’g
Clearing House, Inc., 104 F.3d 1168, 1170 (9th Cir.
1997). The court concluded that undisputed facts proved
Marshall’s direct participation in the corporate defendants’ unlawful conduct. Id. at 18-23 [ER_58-63]. The
record showed that Marshall sought to transfer clients
from Brookstone to Advantis, encouraged his codefendants to market Advantis’s mass joinder services,
and met with Brookstone/Advantis sales personnel,
including to review sales scripts. Id. at 19-20 [ER_5960]. He appeared in the Wright v. Bank of America
litigation on behalf of all the plaintiffs and worked
extensively on that case because he needed to
“present[ ] well for Advantis” due to its importance.
Id. at 20 [ER_60].
The court rejected Marshall’s claim that a declaration he submitted created a genuine dispute over
material facts. The court found that “[a] conclusory, selfserving affidavit, lacking detailed facts and any supporting evidence, is insufficient to create a genuine
issue of material fact.” Id. at 20 n.7 [ER_60 n.7]
(quoting Publ’g Clearing House, 104 F.3d at 1171).
The court determined that Marshall’s extensive
involvement in the scheme and his “likelihood of
recurring violations” warranted permanent injunctive
relief. Id. at 20-21 [ER_60-61]. It also found that
Marshall “had the requisite knowledge” of the unlawful
acts at issue to be liable for monetary relief in the
amount of consumer loss. Id. at 21-22 [ER_61-62].

App.87a
5. Final Judgment
After ruling on the motions for summary judgment,
but before entering final judgment, Judge O’Connell
unfortunately died. Based on the summary judgment
order, Chief Judge Phillips entered the final judgment
against Marshall and Foti, including injunctive and
equitable monetary relief. DE.360 [ER_8-24]. The
judgment permanently bans Marshall from work
involving debt relief products and services, bars him
from misrepresenting the likelihood of obtaining a
refund for consumers, and imposes compliance
reporting, recordkeeping, and monitoring requirements.
Id. §§ I-III, IX-XI [ER_15-17, 20-24]. It also orders a
monetary judgment against Marshall (jointly and
severally with the other defendants) of $1,784,022.61,
which reflects the amounts consumers lost during the
time when Marshall participated in the scheme. Id.
§ IV [ER_17-18].
The case was then assigned to Judge David O.
Carter for post-judgment matters. He rejected Foti’s
argument that Judge Phillips violated Fed. R. Civ. P.
63 by failing to certify her familiarity with the record
before issuing the Final Judgment. DE.391 [SER_1-20].
He ruled instead that Rule 63 does not apply in summary judgment proceedings, where “the successor
judge is not required to make credibility determinations.” Id. at 11 [SER_11].
SUMMARY OF THE ARGUMENT
1. The principal question in this case is whether
summary judgment can be defeated by Marshall’s
own unsupported declaration. The FTC presented
substantial undisputed evidence showing that Marshall,
the two Advantis firms, and the Brookstone firms

App.88a
operated together as a common enterprise. Marshall
offered in response only his own statement that he is
an innocent party unfairly swept into the FTC’s case
because the name of his law firm, Advantis Law Group
PC, is highly similar to that of the guilty firm, Advantis
Law PC. In particular, he claims that, until his deposition, he had never heard of Advantis Law PC.
a.

The district court properly rejected Marshall’s
declaration as a basis for denying summary
judgment. Marshall’s unsubstantiated denial
that he was unaware of Advantis Law PC
until his deposition runs headlong into the
record, including his representation of that
firm in this very litigation. Other evidence
similarly show Marshall’s involvement with
both firm names. Thus, even if an unsubstantiated declaration could theoretically defeat
summary judgment, it could not do so here
because it was so “contradicted by the record
. . . that no reasonable juror could believe
it.” Scott v. Harris, 550 U.S. 372, 380-81
(2007).

b.

Undisputed facts in the record apart from
Marshall’s knowledge of Advantis Law PC
prove his liability. He actively participated on
behalf of Advantis Law Group PC in the
principal case, Wright v. Bank of America,
used to lure victims. He arranged the transfer
of clients from Brookstone to Advantis. He
pressed for greater marketing of Advantis
Law Group PC and scheduled meetings to
discuss marketing scripts with the sales
team. He directly acknowledged that
Brookstone’s legal problems could expose

App.89a
him to liability, yet he continued participating
as a business decision.
2. The district court properly held that Marshall
is not entitled to the attorney exception to the MARS
Rule’s ban on up-front fees. He waived the defense by
failing to plead it below. If he may raise it, the
exception requires that an attorney deposit advance
fees in client trust accounts. Marshall admitted that
he did not deposit the fees in such accounts. In addition, he failed to show that he complied with state
ethics obligations, as the exception also requires.
3. Rule 63 did not require Chief Judge Phillips to
certify her familiarity with the record before entering
final judgment. That rule does not apply to summary
judgment proceedings where witness credibility is
not at issue.
Nor did an alleged lack of familiarity with the
record cause any error in the injunctive relief directed
in the district court’s Final Order. The summary
judgment order contemplated restrictions on Marshall’s
future conduct, given his central role in the deceptive
scheme and the likelihood of his recidivism. The summary judgment order likewise determined both that
Marshall had the requisite knowledge to be found
monetarily liable and that liability should equal
consumer loss. No familiarity with the record was
needed to order that relief.
4. The district court properly exercised its discretion when it denied Marshall’s motions to amend
his answer and to extend the discovery period. An extension for “good cause” under Fed. R. Civ. P. 16(b)(4)
requires a litigant to diligently pursue his claims.
Marshall did not do so. He tried to amend his answer

App.90a
more than two months late and he failed to explain
why he could not have filed earlier. He also failed to
provide initial disclosures or take any discovery,
fatally undercutting his later request to extend discovery for months.
5. The district court properly found Marshall in
contempt for using $24,500 in frozen funds to pay a
criminal defense lawyer. The decision in Luis v. United
States, 136 S. Ct. 1083 (2016), does not justify his
conduct. When Marshall violated the district court’s
freeze order, he was under neither criminal indictment
nor even investigation. And in any event, the Sixth
Amendment does not apply to an asset freeze in a civil
case.
STANDARD OF REVIEW
The Court reviews a district court’s grant of
summary judgment de novo to determine “whether,
viewing the evidence in the light most favorable to
the non-moving party, there are genuine issues of
material fact and whether the lower court correctly
applied the relevant substantive law.” Network Servs.
Depot, 617 F.3d at 1138. The judgment may be affirmed
on any ground supported by the record. Dietrich v.
John Ascuaga’s Nugget, 548 F.3d 892, 896 (9th Cir.
2008). The non-moving party must set forth evidence
that is “significantly probative as to any fact claimed
to be disputed.” SEC v. Murphy, 626 F.2d 633, 640
(9th Cir. 1980) (cleaned up).
The Court reviews for abuse of discretion the
district court’s orders: 1) denying Marshall leave to
amend his answer, Owens Corning v. Nat’l Union Fire
Ins. Co., 257 F.3d 484, 491 (6th Cir. 2001); 2) denying
Marshall leave to extend discovery, Quinn v. Anvil

App.91a

Corp., 620 F.3d 1005, 1015 (9th Cir. 2010); 3) holding
Marshall in contempt, FTC v. EDebitPay, LLC, 695

F.3d 938, 943 (9th Cir. 2012); 4) denying Marshall’s
Rule 63 challenge, Home Placement Service, Inc. v.
Providence Journal Co., 739 F.2d 671, 677-78 (1st
Cir. 1984); and 5) deciding to impose equitable monetary
and injunctive relief, FTC v. Grant Connect, LLC,
763 F.3d 1094, 1101 (9th Cir. 2014).
ARGUMENT
I.

The District Court Properly Entered Summary
Judgment Against Marshall

Marshall was personally liable for the unlawful
acts of the corporate defendants if he “participated
directly in the acts or practices or had the authority
to control them.” Publ’g Clearing House, 104 F.3d at
1170; see also FTC v. Commerce Planet, Inc., 815 F.3d
593, 600 (9th Cir. 2016). Substantial undisputed evidence shows that Advantis (both Advantis Law PC
and Advantis Law Group PC) and Brookstone operated
as a seamless common enterprise with the same pitches,
offices and staff, and that, beginning in early 2015,
Marshall played an integral role by participating
directly in the unlawful conduct.
Before this Court, Marshall does not contest the
grant of summary judgment against the Brookstone
companies or deny that Advantis Law PC was part of
the unlawful scheme. The gist of Marshall’s argument
on appeal is that he was an innocent bystander unfairly
swept into “one indistinguishable pot” with the Brookstone entities and personnel because the name of his
law firm—Advantis Law Group PC—is similar to that
of the guilty law firm—Advantis Law PC. Br. 5, 7, 11-

App.92a
12, 23-24. As he tells it, the district court improperly
declined to credit his declaration describing the
distinction between the two sound-alike firms, which
he claims raised a disputed issue of fact material to
his personal liability.
The district court properly declined to consider
Marshall’s declaration, which directly contradicted
evidence from this case on the distinction between
the law firms and failed to address other key evidence
showing Marshall’s role in, and knowledge of, the
common enterprise. In any event, the difference
between the firms is not a material fact and Marshall’s
reliance on it is a red herring. Abundant undisputed
evidence aside from the law firm nomenclature showed
Marshall participated directly in the unlawful mortgage
modification scheme.
A. The District Court Properly Declined to
Consider Marshall’s Declaration
Marshall’s declaration states that he was unaware
of the existence of Advantis Law PC until asked about
that firm at his March 2017 deposition. DE.313-1 ¶ 5
[ER_2137]. The district court declined to consider the
declaration on the ground that “[a] conclusory, selfserving affidavit, lacking detailed facts and any supporting evidence, is insufficient to create a genuine
issue of material fact.” DE.353 at 20 n.7 [ER_60 n.7].
The court cited this Court’s opinion in Publ’g Clearing
House, 104 F.3d at 1171, for that determination. On
that standard, which remains good law, the district
court properly declined to rely on the declaration.
Just two years ago in CFPB v. Gordon, 819 F.3d
1179, 1193-94 (9th Cir. 2016), this Court held that a
declaration that lacks “detailed facts and any sup-

App.93a
porting evidence,” does not defeat summary judgment
where the moving party has provided substantial
contrary evidence, as the FTC did here. Gordon, like
this case, involved a defendant held personally liable
for corporate acts in a deceptive loan modification
scheme, and the Court affirmed the district court’s
grant of summary judgment in the face of a bald denial similar to Marshall’s. See id., 819 F.3d at 1192-94.
Here, the FTC presented a detailed statement of
undisputed facts showing Marshall’s culpability, each
supported by substantial documentary evidence.
Marshall, by contrast, makes the unsupported claim
that “he knew nothing about . . . a separate corp entity
called Advantis Law PC.” DE.313-1 ¶ 5 [ER_2137].
Indeed, this was the first time he made such a claim
after nearly a year of litigation. Marshall did not raise
the issue in response to discovery requests by the FTC
demanding evidence as to any defenses. This included
a request that he identify any people or entities who
had information suggesting that he or another defendant (like ALG) are not liable. DE.341 ¶¶ 335, 336
[ER_2614-17] (citing DE.284-14 at Page ID 8126-28
¶¶ 4-6, 8423-26 (Att. 16) [ER_1709-11, 2006-09]; DE.
284-15 at Page ID 8432-33 (Att. 17) [ER_2022-23].
Several prior declarations submitted by Marshall
likewise drew no distinction between the two Advantis
firms. E.g., DE.212-2 [ER_247-56]. He provided no
evidence that Advantis Law PC engaged in marketing
mass joinder cases or other activities apart from that
of ALG.
The Supreme Court has recognized that where an
assertion is “contradicted by the record, so that no
reasonable juror could believe it, a court should not
adopt that version of the facts” in ruling on summary

App.94a
judgment. Scott v. Harris, 550 U.S. 372, 380 (2007).
Marshall’s belated claim that he was unaware of the
existence of “Advantis Law PC” until his deposition
is directly contradicted by the record. In particular,
the FTC’s complaint was filed in May 2016, shortly
after which Marshall appeared as the attorney of record
for both Advantis Law Group PC and Advantis Law PC.
He then signed the stipulation for the preliminary
injunction on behalf of Advantis Law PC (as well as
Advantis Law Group PC) and represented both firms
until final judgment was issued in September 2017.
Indeed, in negotiations with FTC counsel over the
stipulated PI in June 2016—nine months before the
deposition—Marshall’s emails to FTC counsel stated
his intention to sign the stipulation “as to the two
Advantis defendants.” DE.301-1 [SER_37-50]. He was
also identified as the attorney for “Advantis Law,
PC” in an advertising solicitation. DE.41-2 at Page
ID 2511 [SER_206]. No reasonable jury would believe
him.
Accepting a declaration like Marshall’s to defeat
summary judgment would hand litigants a trump
card in summary judgment proceedings. They could
defeat summary decision and force an expensive and
burdensome trial merely by creating some story,
however farfetched, lacking in evidentiary support,
or failing to address material facts in the record. The
Court should not condone such a result.
Contrary to Marshall’s suggestion, the Court did
not adopt that approach in Nigro v. Sears, Roebuck,
& Co., 784 F.3d 495, 497 (9th Cir. 2015), when it held
that a “district court may not disregard a piece of evidence at the summary judgment stage solely based on
its self-serving nature.” See Br. 30. Nigro explained

App.95a
further that “a self-serving declaration that states
only conclusions and not facts that would be admissible
evidence” does not create genuine disputed facts. Id.
at 497. That explanation was in keeping with long
established precedent that “bald assertions or a mere
scintilla of evidence” in a party’s favor do not defeat
summary judgment in the absence of supporting evidence. FTC v. Stefanchik, 559 F.3d 924, 929 (9th Cir.
2009).
Following the logic of Nigro and Stefanchik,
unsupported assertions or denials in Marshall’s declaration—which essentially amount to “I didn’t know
or do anything”—lack probative value and thus do
not create genuine issues of fact where they fail to
address directly contrary record evidence.
For example, his declaration does not deny that
Marshall knew about the advantislaw.com website, that
his name and image appeared on the website identifying him as a “Director,” and that the website identified
the Wright matter as an ALG case. DE.284-14 at Page
ID 8413, 8414 [ER_1997] (RFAs nos. 8, 11); DE.218-2
at Page ID 6073 [SER_89] (Marshall Dep. at 243:1114). And it does nothing to rebut that he knew about
the misrepresentations about ALG on the firm’s website, but took no corrective action. DE.284-14 at Page
ID 8126 8414-16 [ER_1997-99] (RFA nos.13-27)];
DE.218-2 at Page ID 6073 [SER_89__] (Dep. at 241:1244:11); see DE.341 ¶ 334 [ER_2614].
Neither does his declaration address or dispute
record evidence establishing the common enterprise,
such as his awareness that Brookstone and ALG shared
sales people and other staff, DE.284-14 at Page ID
8416 [ER_8416] (RFA nos. 28-36), and shared office

App.96a
addresses. DE.284-14 at Page ID 8416-17 [ER_19992000] (RFA nos. 37-45); DE.341 ¶¶ 21-24 [ER_2203-06].
His declaration also does not deny that he
abdicated responsibility for Advantis marketing,
confirming his previous testimony that— although he
asked Foti and Kutzner to ramp up marketing for
Advantis—he relied on others to ensure that the
marketing was legally compliant. DE.313-1 ¶¶ 41-44
[ER_2149-50]; DE.218-2 at Page ID 6071, 6073
(Marshall Dep. at 215:23-216:24; 244:19-25), id. at
Page ID 6074 (Marshall Dep. at 247:10-248:5), id. at
Page ID 6077 (Marshall Dep. at 261:3-9) [SER_87-93].
He also does not deny that he worked on several
Brookstone mass joinder cases after his bar suspension
was lifted in February 2016, and asked to see recent
pleadings in Brookstone cases so he could “assess
status of hearings, pleadings, next steps, etc.” DE.3131 ¶ 34 [ER_2147]; DE.284-14 at Page ID 8413, 841819 [ER_1996, 2001-02] (RFA nos. 56-62); DE.284-8 at
Page ID 7485 ¶ 4.h., 7537 [ER_890, 942] (Ex. 53).
Further, as discussed above, his new assertion that
he was unaware of Advantis Law PC, is contradicted
by his representation in this case of both Advantis
entities. And other specific assertions he makes (e.g.,
that ALG had only one foreclosure-related client and
only one bank account that he controlled, see Br. 30)
are simply irrelevant given the record evidence showing
his participation in many aspects of the common
enterprise.
Marshall makes two additional meritless arguments challenging the district court’s rejection of
his declaration. First, he asserts that the rejection
amounted to an assessment of his credibility, which
is improper in a summary judgment ruling. Br. 32. In

App.97a
fact, as discussed above, the court properly rejected
the declaration because it failed to address or deny
material facts supporting his liability, and well as
being unsupported and conclusory. DE.353 at 20 n.7
[ER_60 n.7].
Second, he claims that, by rejecting his declaration,
the district court drew improper inferences from
Marshall’s earlier invocation of his Fifth Amendment
right against self-incrimination. Br. 33. He again
provides no support for this claim, and there is none.
The FTC never argued that the court should draw
negative inferences, and the court relied on no such
inferences in its ruling or final judgment. See DE.2841 [ER_583-678]; DE.315; DE.353 [ER_41-64]; DE.360
[ER_8-24].
B. Undisputed Facts Unrelated to Advantis Law
PC Show Marshall’s Individual Liability
Marshall’s arguments over the declaration are a
red herring in any event because undisputed facts
unrelated to the distinction between the law firms
establish his personal liability for the corporate acts.
Marshall does not contest that the Brookstone/
Advantis scheme violated the FTC Act and the MARS
Rule (and the undisputed evidence showed overwhelmingly that the operation was unlawful through-andthrough).12 It is unchallenged that before 2015, the
12 Marshall did not respond to the FTC’s discovery requests for
documents or information relating to whether the claims were
truthful. He also did not respond to the FTC’s Requests for Admissions regarding numerous false statements to consumers. As
a result, Marshall has admitted the corporate defendants’
liability. See Fed. R. Civ. P. 36(a)(3).

App.98a
Brookstone fraud had been ongoing for several years
and that one of its principal false selling points was
the Wright v. Bank of America litigation. Marshall,
through Advantis Law Group PC, became affiliated
with Brookstone in February 2015. Undisputed facts
showed that Marshall became deeply involved with the
Wright case, entering his appearance for all of the
plaintiffs, ensuring that the case “stay[ed] on track”
due to its importance, and noting that he had “done
all the right things to keep that baby alive.” DE.353
at 20 [ER_60]; see infra at 13. Indeed, he admitted
each of these facts in his declaration, DE.313-1 ¶¶ 28,
32 [ER_2145-46], further supporting his undisputed
role in the scheme.
He also arranged for the transfer of clients from
Brookstone to Advantis Law Group PC, giving instructions regarding the “Brookstone to Advantis
client hand-off.” His emails discuss Brookstone clients
“subject to transfer to Advantis,” and, as he confirmed
in his declaration, he signed letters addressed to
Brookstone clients informing them that their cases
were being transferred to Marshall and Advantis. See
infra at 12; DE.313-1 ¶ 21 [ER_2142].
The district court determined that undisputed
evidence showed (and Marshall’s declaration confirms)
that Marshall asked Foti and Kutzner to begin “fully
open marketing,” to conduct that marketing “full on,”
and to “open up the marketing” to consumers for mass
joinder litigation to be run by Marshall. DE.353 at 19
[ER_59]; DE.341 ¶ 305 [ER_2590-91]; DE.313-1 ¶ 22
[ER_2143]. Marshall also scheduled a meeting with
Brookstone/Advantis sales people to review the entire
business, including sales scripts, a fact again confirmed
in Marshall’s declaration. DE.353 at 20 [ER_60];

App.99a
DE.313-1 ¶ 26 [ER_2144-45]. A marketing mailer,
referring both to “Advantis Law Group” and “Advantis
Law, PC,” identified Marshall as the attorney.
Marshall’s declaration disputes none of those
instances of his direct participation in the scheme
(and, as noted above, supports many of them). Even
if there had been some meaningful distinction between
“Advantis Law PC” and “Advantis Law Group PC,”
undisputed evidence shows that Marshall himself
directly participated in the Brookstone/ Advantis
operation and therefore properly bears liability for its
conduct.
Indeed, Marshall—who himself had been disciplined multiple times for MARS-related violations (see
n.6, supra)—knew of bar discipline and enforcement
actions taken against Brookstone and its officers, all
relating to its mass joinder practice. DE.341 ¶¶ 321,
323, 331 [ER 2604-06, 2611]; D.313-1 ¶¶ 39, 40
[ER_2148-49]. Marshall’s emails indisputably indicate
his view that his affiliation with Brookstone was
creating “a lot of liability for me,” but he pursued the
alliance as “fundamentally a business decision.” DE.341
at ¶ 332 [ER 2612-13].13

13 In light of the record, Marshall is wrong that the district court
improperly applied against him the default judgment against the
corporate defendants. Br. 36-38. The judgment rested on undisputed
evidence in the summary judgment record, as fully explained by the
district court, which did not even mention the default judgments in
rendering its decision. DE.353 at 9-10 [ER_49-50].

App.100a
C. Undisputed Facts Show That the Attorney
Exception to the MARS Rule Does Not
Immunize Marshall
Undisputed facts showed that Marshall’s scheme
collected up-front fees, which are unlawful under the
MARS Rule. 12 C.F.R. § 1015.5. Marshall does not
question that the services he offered were MARS
services or that he collected advance fees. He nevertheless asserts (Br. 33-36) that he is entitled to the
attorney exception to the advance-fee prohibition, 12
C.F.R. § 1015.7, and that the district court erred in
not according him that protection. The claim is both
waived and meritless.
First, Marshall waived the defense by not pleading
it below or providing any discovery responses supporting the claim. The exemption is an affirmative
defense, which under Fed. R. Civ. P. 8(c) Marshall
was required to plead in his answer. He did not, see
DE.149 [ER_213-15], nor did he identify the defense
in response to the FTC’s discovery requests, DE.341
¶¶ 335-37 [ER_2614-18]. It is now too late to seek
harbor in the attorney exception.
The argument fails in any event. Marshall bore
the burden to prove the affirmative defense, Kanne v.
Conn. Gen. Life Ins. Co., 867 F.2d 489, 492 n.4 (9th
Cir. 1988), and he failed to show either that he met
the exception or that factual disputes prevented
resolution of the matter. The uncontroverted facts
show that Marshall and Advantis failed to meet at
least two of the exemption’s prerequisites. The attorney
exemption applies only to lawyers who deposit advance
fees in a client trust account, 12 C.F.R. § 1015.7(b),
and who comply with their state bar ethics obligations,

App.101a
12 C.F.R. § 1015.7(a).14 Marshall provided no evidence
he met either requirement.
First, undisputed evidence shows that the defendants failed to deposit up-front fees in client trust
accounts as required under 12 C.F.R. § 1015.7(b).
Indeed, Marshall admitted that fact, which alone is
fatal to his claim. DE.341 ¶ 171 [ER_2426].
Second, as the district court correctly recognized,
“Marshall and Foti do not put forth evidence that the
Corporate Defendants were complying with legal
ethical duties sufficient to satisfy that the attorney
exemption applies.” The FTC’s evidence “suggests that
the Corporate Defendants did not comply with their
ethical duties, and that they were informed of their
unethical practices.” See DE.353 at 16-17 & n.6 [ER_5657 & n.6]. Marshall bore the burden to prove his
entitlement to the exception, and he did not meet it.
Marshall’s only response is that the FTC failed to
show that he did not comply with California state
law “regarding the specific MARS services” challenged
in the FTC’s complaint. Br. 34. But as we have
explained, it was his burden—not the FTC’s—to show
that he qualified for the attorney exemption, which
he failed to do. In any event, it appears he did violate
California law prohibiting advance fees for MARS
services, one of the MARS services challenged by the
FTC. Like the MARS Rule, Cal. Civ. Code § 2944.7(a)
14 See FTC’s MARS Rule Statement of Basis and Purpose, 75 Fed.
Reg. 75092, 75131-32 (Dec. 1, 2010) (explaining that § 1015.7(a)
(3)’s requirement of “compl[ying] with state laws and regulations
that cover the same type of conduct that the rule requires,”
essentially covers various attorney ethical and professional responsibility requirements).

App.102a
expressly bars advance fees until promised “mortgage
loan modification or other form of mortgage loan
forbearance” services are performed. Thus, he undoubtedly failed to comply with applicable state law. See In
the Matter of Jorgensen, 2016 WL 3181013, at *2-3
(Review Dep’t, Cal. State Bar Ct. May 10, 2016)
(finding lawyer violated § 2944.7 by taking advance
fees before performing promised loan modification
services even though retainer services stated services
were limited to litigation).
II.

Rule 63 Does Not Apply to This Case

Marshall argues that Chief Judge Phillips violated
Fed. R. Civ. P. 63 when she entered Final Judgment.
The claim is that because she had not issued the
summary judgment order, she was required under the
Rule to certify familiarity with the record, which she
did not do. Br. 38-40. Rule 63 does not apply here.
By its plain language, the Rule applies only to “a
judge conducting a hearing or trial.” The proceedings
below involved summary judgment. The Rule therefore
does not apply on its face.
The point of Rule 63 is that hearings and trials
require a court to assess the credibility of live
witnesses. Thus, the Rule provides that “[i]n a hearing
or a nonjury trial, the successor judge must, at a
party’s request, recall any witness whose testimony
is material and disputed and who is available to testify
again without undue burden.” As the Advisory Committee that amended the Rule in 1991 observed, a
court would “risk error to determine the credibility of
a witness not seen or heard who is available to be
recalled.” Indeed, the Committee notes are replete
with references to judges becoming unavailable “during

App.103a
the trial.” Such concerns do not apply to summary
judgment proceedings, which do not turn on live
testimony and involve only undisputed facts shown
through documents.
In keeping with that understanding of the Rule,
this Court has held that where a successor judge takes
over following a bench trial, but before the original
judge made findings of fact, “as an alternative to
stepping into the shoes of the unavailable district
judge . . . the successor judge may examine the trial
transcript as if it were ‘supporting affidavits’ for
summary judgment purposes and enter summary
judgment if no credibility determinations are required.”
Patelco Credit Union v. Sahni, 262 F.3d 897, 906 (9th
Cir. 2001) (emphasis added) (citing 12 Moore’s Federal
Practice § 63.05[3] (3d ed. 1999)). The Court noted
that “[a] significant body of case law supports this
proposition.” Id. Thus, “Rule 63 is not violated when
no material facts are in dispute and the successor
judge rules as a matter of law.” Id.
Indeed, this is even a stronger case for rejecting
a Rule 63 challenge than Patelco. Here, Judge
O’Connell granted summary judgment based on a
factual record she determined was undisputed, which
showed that Marshall was liable for permanent
injunctive and monetary relief.15 Chief Judge Phillips
was not required to assess witness credibility nor
even determine if there were disputed facts. Rather,
15 Marshall also suggests there are “cogent reasons or exceptional
circumstances” that justify revisiting Judge O’Connell’s summary
judgment order given her “capacity” at the time. Br. 40 (citing
Fairbank v. Wunderman Cato Johnson, 212 F.3d 528, 532 (9th
Cir. 2000)). He provides no support for this offensive assertion.

App.104a
she could enter the Final Judgment based on record
facts already determined to be undisputed and Judge
O’Connell’s summary judgment order. Rule 63 required
no further proceedings.
In denying the same argument when Foti made it
below, the district court agreed that no Rule 63 certification was required where Judge O’Connell had
already determined that undisputed facts showed the
individual defendants were liable for permanent
injunctive relief. DE.391 at 9-12 [SER_9_12]. And
this Court likewise seemed unpersuaded by this
argument when it denied Foti’s Motion to Stay Pending
Appeal, which claimed likelihood of success based in
part on the same argument. FTC v. Foti, No. 17-56455
(9th Cir. Jan. 24, 2018).
Marshall also contends that the Final Judgment
is invalid because it contains “extensive and draconian
injunctive relief” against Marshall, which was “inconsistent” with the summary judgment order. Br. 39.
He seems to suggest that Chief Judge Phillips’s lack
of familiarity with the record (as allegedly evidenced
by the lack of a Rule 63 certification) led her to
impose overbroad relief.
To the contrary, Judge O’Connell’s summary
judgment order clearly contemplated the injunctive
provisions challenged by Marshall. The FTC explained
in its motion for summary judgment the need for the
very injunctive provisions later entered by Chief
Judge Phillips (in particular, the ban against selling
debt relief products or services) particularly given
Marshall’s “history of repeated attorney discipline for
loan modification work” and the likelihood of future
infractions. DE.284-1 at Page ID 7060 [ER_624];

App.105a
DE.341 ¶¶ 351-55 [ER_2627-29].16 Judge O’Connell
concluded that undisputed evidence established that
Marshall “participated directly” in the deceptive
scheme by playing a central role to ensure that Advantis
continued Brookstone’s bogus mortgage modification
scheme, including his participation in the Wright litigation. DE.353 at 19-20 [ER_59-60]. The court also
observed that Marshall “could engage in similar
conduct in the future” since he continues to practice
law. Thus, “a permanent injunction” against him “is
warranted.” Id. at 20-21 [ER_60-61].
Marshall also challenges the district court’s
imposition of monetary liability based on the acts of
all the corporate defendants even though he allegedly
controlled only Advantis Law Group PC. Br. 7. For
all the reasons explained above, this claim too lacks
merit.
Once injunctive liability is proven, the defendant
may be held monetarily liable if the FTC establishes
he has the requisite knowledge through proof of
“actual knowledge of material misrepresentations,
. . . reckless[ ] indifferen[ce] to the truth or falsity of a
misrepresentation, or . . . awareness of a high
probability of fraud along with an intentional
avoidance of the truth.” Grant Connect, 763 F.3d at
1101-02. “The extent of an individual’s involvement
in a fraudulent scheme alone is sufficient to establish
16 A permanent injunction is necessary to restrain his future
conduct because there is a “cognizable danger of recurring
violation.” FTC v. Gill, 71 F. Supp. 2d 1030, 1047 (C.D. Cal. 1999)
(citing United States v. W.T. Grant, 345 U.S. 629, 633 (1953)),
aff’d, 265 F.3d 944 (9th Cir. 2001). Beyond that, where violations
of law were “predicated upon systematic wrongdoing,” as they were
here, “a court should be more willing to enjoin future conduct.” Id.

App.106a
the requisite knowledge for personal restitutionary
liability.” FTC v. Affordable Media, LLC, 179 F.3d
1228, 1235 (9th Cir. 1999).
Although Marshall claims ignorance of the activities of Advantis Law PC, he admits he took over the
business from Brookstone, was well aware of the
checkered histories of others involved in the Brookstone
mass joinder scheme, and knew of the allegations of
ethical misconduct against them. He nonetheless chose
to do business with them, even as he acknowledged
that he was taking on “liability” in doing so. DE.341
¶¶ 321-32 [ER_2604-13]; DE.313-1 ¶¶ 42, 45 [ER_214950] (Marshall admitting he knew of Broderick’s past
and saw no documents showing that Advantis advertising materials were legally compliant). He took
steps to avoid further knowledge of illegality of the
sales process. Despite his direct involvement in the
scheme, he neither reviewed the marketing materials
nor performed any due diligence. The district court
properly found that undisputed facts showed that
Marshall was sufficiently aware of corporate wrongdoing due to his “extensive involvement in the fraudulent scheme,” and had at least an “awareness of a
high probability of fraud along with an intentional
avoidance of the truth.” DE.353 at 21-22 [ER_61-62].
Further, Marshall is liable for the full amount of
consumer loss during the period in which he participated in the scheme. Commerce Planet, 815 F.3d at
600; see generally FTC v. Pantron I Corp., 33 F.3d
1088, 1102 (9th Cir. 1994). Corporate records show
that consumers lost $1,784,022.61 during the time
Marshall was in control, after deducting refunds and
chargebacks. The Final Judgment properly imposed this
amount of equitable monetary relief against Marshall.

App.107a
III. The District Court Reasonably Denied Marshall’s
Tardy Requests to Amend His Answer and to
Extend Discovery
Marshall’s answer to the complaint did not admit
or deny anything and asserted no affirmative defenses,
but invoked a blanket Fifth Amendment right against
self-incrimination. DE.149 [ER_213-15]. He refused
to engage in discovery on the same ground. He later
decided to change strategy and sought leave to amend
his answer to respond substantively to the FTC’s
allegations and assert affirmative defenses. He likewise
sought additional time for discovery. The district
court denied both requests, and Marshall now claims
that the denials were abuses of discretion. Br. 40-53.
They were not.
A motion for leave to amend a pleading is typically
evaluated under the permissive standards of Fed. R.
Civ. P. 15(a)(2). But if the motion is filed after the court
has issued a scheduling order, the court first applies
“the heightened good-cause standard of Fed. R. Civ.
P. 16(b)(4) before considering whether the requirements of Rule 15(a)(2) were satisfied.” Alioto v. Town
of Lisbon, 651 F.3d 715, 719 (7th Cir. 2011). The “good
cause standard” for modification, which also governs
motions to extend the discovery period, “primarily
considers the diligence of the party seeking the
amendment.” Johnson v. Mammoth Recreations, Inc.,
975 F.2d 604, 609 (9th Cir. 1992). The party must
show that, even with the exercise of due diligence, he
was unable to meet the court’s deadline. Zivkovic v.
S. Cal. Edison, Co., 302 F.3d 1080, 1087 (9th Cir.
2002); Johnson, 975 F.2d at 609. “If the party seeking
modification was not diligent,” the motion should
be denied. Zivkovic, 302 F.3d at 1087 (cleaned up).

App.108a
Although “prejudice to the [opposing] party . . . might
supply additional reasons to deny a motion,” the
focus of the inquiry is the moving party’s diligence.
Johnson, 975 F.2d at 609. Applying these standards,
the court acted well within its discretion in denying
Marshall’s motions.
First, the court properly refused to allow Marshall
to amend his answer.17 He had nearly five months—
until March 6, 2017—to seek amendment under the
court’s amended scheduling order. DE.169 at 12
[SER_137]. Yet, he waited for more than two additional
months, until May 15, 2017. DE.238 [ER_378-420].
The court denied the motion because Marshall had
not acted diligently and thus had not shown good cause
under Rule 16. DE.259 [ER_103-16]. Marshall failed
to explain how the new information in his amended
answer would have incriminated him had he revealed
it earlier. It therefore should have been included in
his original answer or in an amendment made before
the filing deadline. Id. at 9 [ER_111]. The court also
expressed concern about the “risk of prejudice and
undue delay.” Id. at 11 [ER_113]. The FTC would be
prejudiced, the court found, because it had already
taken Marshall’s deposition without the benefit of his
amended answer and affirmative defenses; allowing
17 Marshall’s claim that nearly all his assets frozen under the TRO
asset freeze—which purportedly made it so difficult for him to retain
counsel—were unrelated to the Brookstone/Advantis scheme, Br. 46,
is unsupported and irrelevant. The district court’s authority under
Section 13(b) to freeze defendants’ assets to permit effective final
relief has been upheld numerous times, and there is no obligation to
trace moneys from the wrongdoing to those assets. Commerce
Planet, 815 F.3d at 601 (citing FTC v. Bronson Partners, LLC, 654
F.3d 359, 373-74 (2d Cir. 2011)).

App.109a
amendment would require additional depositions and
discovery, with the discovery deadline approaching.
That disposition fell well within the court’s discretion
under the Rules.
Marshall moved again at the end of July 2017 for
leave to file an almost-identical amended answer.
DE.296 [ER_2075-2118]. His motion did not address
any of the deficiencies the court had identified earlier,
and the court once again denied it for lack of good
cause. DE.343 at 4-6 [ER_68-70].
The court likewise reasonably refused Marshall’s
belated attempt to extend discovery. Just three weeks
before discovery closed, he asked not only to extend
discovery, but to postpone trial for at least five
months. He claimed that because he had decided not
to assert the Fifth Amendment any longer, the extension was necessary to give him time to provide his
initial disclosures (which had been due nearly a year
earlier) and more substantive discovery responses, to
take his own discovery, and prepare for trial. DE.292
[ER_2035-51].
The district court reasonably denied an extension
because Marshall had not diligently pursued his claims
and had failed to comply with court orders and procedures by ignoring his discovery obligations throughout the litigation. DE.336 at 5-6 [ER_75-76]. In particular, he had not provided his Rule 26(a)(1) initial
disclosures nor had he taken any discovery. Id.18
18 Marshall’s reliance (Br. 43) on Ahanchian v. Xenon Pictures,
Inc., 624 F.3d 1253, 1255 (9th Cir. 2010), is misplaced. There,
this Court found an abuse of discretion in denying a one-week
extension to oppose a summary judgment motion where the
party had only five business days to respond to the motion, and

App.110a
Finally, Marshall suggests that the court unfairly
denied his extension motions, but granted the FTC’s
request to extend discovery. Br. 41, 47, 52 (citing
DE.318 [ER_79-80]). The situations are not comparable.
The court granted the FTC’s request for extra time
because Marshall had failed to produce long-overdue
discovery responses, including hundreds of relevant
emails he had repeatedly failed to produce. DE.318
[ER_79-80]; DE.331 [ER_77-78].19 Marshall, by contrast, sought an extension to begin discovery, on
which he had entirely defaulted.
IV. The District Court Properly Held Marshall in
Contempt for Using Frozen Money
The district court found Marshall in contempt
when he transferred, with knowledge of the TRO
freezing all of his assets, $24,500 of those assets to
his criminal defense lawyer. DE.260 at 11-12 [ER_9394] (citing FTC v. Johnson, 567 F. App’x 512, 515
(9th Cir. 2014)). The court ordered Marshall to return
the $24,500 to the Receiver by June 19, 2017. DE.260
at 19 [ER_101].20 Marshall challenges the contempt
order. Br. 53-58.
the district court improperly found that a short delay in filing
an opposition was not excusable neglect. Id. at 1255, 1258-62.
Here, by contrast, Marshall moved to amend his answer more
than two months after the deadline to do so, and requested a
five month extension to take discovery only three weeks before
the end of the discovery period. Unlike Ahanchian, the court
also properly applied governing law.
19 Marshall was sanctioned for his failure to produce those
emails. DE.318 at 2 [ER_80]; DE.350 [SER_21].
20 To prove civil contempt, the moving party must first show, by
clear and convincing evidence, that the non-moving party disobeyed

App.111a
The court properly rejected Marshall’s argument
that he had a right under Luis v. United States, 136
S. Ct. 1083 (2016), to pay for criminal defense notwithstanding the asset freeze. For one thing, Marshall
was not under criminal indictment or even investigation. His belief (Br. 54-58) that there might have
been a “related criminal matter” or a “secret criminal
investigation” is pure conjecture and insufficient to
justify his conduct. The district court thus rightly
concluded that “[t]his case is not a criminal case;
accordingly the Sixth Amendment does not apply.”
DE.260 at 10 [ER_92] (citing United States v. $292,
888.04 in U.S. Currency, 54 F.3d 564, 569 (9th Cir.
1995)). This Court was unpersuaded by the same
argument when it denied Marshall’s petition for
mandamus. Marshall v. U.S.D.C., C.D. Cal., Santa Ana,
No. 17-71781 (9th Cir. Sept. 12, 2017).21
Moreover, even if there had been a criminal proceeding, Luis held that in a criminal case the Sixth
Amendment requires a district court to allow a
a specific and definite court order, and that such disobedience was
(1) beyond substantial compliance, and (2) not based on a good faith
and reasonable interpretation of the court’s order. In re Dual-Deck
Video Cassette Recorder Antitrust Litig., 10 F.3d 693, 695 (9th Cir.
1993). If the moving party makes that showing, the contemnors
need to show why they could not comply. Affordable Media, 179 F.3d
at 1239 (citation omitted).
21 Marshall also complains about certain unidentified stipulations
supposedly filed by the FTC, which he asserts “direct[ed] actions”
against him even though he did not sign them. Br. 53. Marshall may
be referring to recent stipulations filed by the Receiver (not the FTC)
and court orders to continue the receiverships. See DE.414; DE.415;
DE.438; DE.439. Marshall was not a signatory or party to those
stipulations because they did not affect him; they dealt with the
assets of other defendants.

App.112a
defendant to pay for defense counsel using frozen
assets that are not traceable to the allegedly criminal
conduct. Id., 136 S. Ct. at 1095-96; U.S. Currency, 54
F.3d 564 at 569. But “the Sixth Amendment does not
govern civil cases.” Turner v. Rogers, 564 U.S. 431, 44143 (2011). Courts have recognized that Luis applies
only to untainted assets frozen before trial under the
criminal forfeiture statutes and not where funds are
being held by a court-appointed receiver in a civil
case or by pretrial attachment by a plaintiff seeking
damages in a civil suit. See United States v. Johnson,
No. 2:11-cr-501-DN, 2016 WL 4087351, at *3 (D.
Utah July 28, 2016); Estate of Lott v. O’Neill, 204 Vt.
182, 165 A.3d 1099 (2017).
CONCLUSION
For the foregoing reasons, the district court’s
judgment should be affirmed.
Respectfully submitted,
Alden F. Abbott
General Counsel
Joel Marcus
Deputy General Counsel
/s/ Michael D. Bergman
Attorney
Federal Trade Commission
600 Pennsylvania Avenue, N.W.
Washington, D.C. 20580
(202) 326-3184

App.113a
Of Counsel:
Benjamin J. Theisman
Gregory J. Madden
Federal Trade Commission
Washington, D.C. 20580
Dated: November 14, 2018

App.114a
RULE 28-2.6 STATEMENT OF RELATED CASES
Pursuant to Ninth Circuit Rule 28-2.6, no other
cases in this Court are deemed related to this appeal.
/s/ Michael D. Bergman
Attorney
Federal Trade Commission

